<html>
<title> - [H.A.S.C. No. 112-43] BUDGET REQUEST FOR MILITARY CONSTRUCTION, BASE CLOSURE, ENVIRONMENT, FACILITIES OPERATION AND MAINTENANCE
</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]


 
                         [H.A.S.C. No. 112-43] 

                                HEARING 

                                   ON 

                   NATIONAL DEFENSE AUTHORIZATION ACT 

                          FOR FISCAL YEAR 2012 

                                  AND 

              OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS 

                               BEFORE THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                   SUBCOMMITTEE ON READINESS HEARING

                                   ON

                      BUDGET REQUEST FOR MILITARY

                      CONSTRUCTION, BASE CLOSURE,

                   ENVIRONMENT, FACILITIES OPERATION

                            AND MAINTENANCE

                               __________

                              HEARING HELD
                             APRIL 13, 2011


                                     
                  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

67-392 PDF                       WASHINGTON : 2011 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 

                                     




















                       SUBCOMMITTEE ON READINESS

                  J. RANDY FORBES, Virginia, Chairman
MIKE ROGERS, Alabama                 MADELEINE Z. BORDALLO, Guam
JOE HECK, Nevada                     SILVESTRE REYES, Texas
AUSTIN SCOTT, Georgia                JOE COURTNEY, Connecticut
FRANK A. LoBIONDO, New Jersey        DAVE LOEBSACK, Iowa
CHRIS GIBSON, New York               GABRIELLE GIFFORDS, Arizona
VICKY HARTZLER, Missouri             LARRY KISSELL, North Carolina
BOBBY SCHILLING, Illinois            BILL OWENS, New York
JON RUNYAN, New Jersey               TIM RYAN, Ohio
TIM GRIFFIN, Arkansas                COLLEEN HANABUSA, Hawaii
STEVEN PALAZZO, Mississippi
MARTHA ROBY, Alabama
                Dave Sienicki, Professional Staff Member
               Vickie Plunkett, Professional Staff Member
                   Christine Wagner, Staff Assistant

























                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2011

                                                                   Page

Hearing:

Wednesday, April 13, 2011, Fiscal Year 2012 National Defense 
  Authorization Budget Request for Military Construction, Base 
  Closure, Environment, Facilities Operation and Maintenance.....     1

Appendix:

Wednesday, April 13, 2011........................................    25
                              ----------                              

                       WEDNESDAY, APRIL 13, 2011
  FISCAL YEAR 2012 NATIONAL DEFENSE AUTHORIZATION BUDGET REQUEST FOR 
MILITARY CONSTRUCTION, BASE CLOSURE, ENVIRONMENT, FACILITIES OPERATION 
                            AND MAINTENANCE
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Bordallo, Hon. Madeleine Z., a Delegate from Guam, Ranking 
  Member, Subcommittee on Readiness..............................     3
Forbes, Hon. J. Randy, a Representative from Virginia, Chairman, 
  Subcommittee on Readiness......................................     1

                               WITNESSES

Hammack, Hon. Katherine G., Assistant Secretary of the Army, 
  Installations, Energy, and Environment.........................     6
Pfannenstiel, Hon. Jackalyne, Assistant Secretary of the Navy, 
  Energy, Installations and Environment..........................     8
Robyn, Dr. Dorothy, Deputy Under Secretary of Defense, 
  Installations and Environment..................................     5
Yonkers, Hon. Terry A., Assistant Secretary of the Air Force, 
  Installations, Environment, and Logistics......................     9

                                APPENDIX

Prepared Statements:

    Forbes, Hon. J. Randy........................................    29
    Hammack, Hon. Katherine G....................................    51
    Pfannenstiel, Hon. Jackalyne.................................    67
    Robyn, Dr. Dorothy...........................................    31
    Yonkers, Hon. Terry A........................................    99

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    Ms. Bordallo.................................................   117
    Mr. Courtney.................................................   118
    Mr. Gibson...................................................   118
    Mr. LoBiondo.................................................   117
    Mr. Schilling................................................   118

Questions Submitted by Members Post Hearing:

    Ms. Bordallo.................................................   128
    Mr. Forbes...................................................   123
    Ms. Sutton...................................................   131
  FISCAL YEAR 2012 NATIONAL DEFENSE AUTHORIZATION BUDGET REQUEST FOR 
MILITARY CONSTRUCTION, BASE CLOSURE, ENVIRONMENT, FACILITIES OPERATION 
                            AND MAINTENANCE

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
                                 Subcommittee on Readiness,
                         Washington, DC, Wednesday, April 13, 2011.
    The subcommittee met, pursuant to call, at 3:30 p.m. in 
room 2212, Rayburn House Office Building, Hon. J. Randy Forbes 
(chairman of the subcommittee) presiding.

  OPENING STATEMENT OF HON. J. RANDY FORBES, A REPRESENTATIVE 
       FROM VIRGINIA, CHAIRMAN, SUBCOMMITTEE ON READINESS

    Mr. Forbes. Well, I want to welcome all our Members and our 
distinguished panel of experts to today's hearing that will 
focus on how our military construction program is aligned with 
our Nation's priorities.
    Fundamentally, our Nation is at war with an aggressive 
adversary. Our forces have been successful in engaging this war 
on the doorsteps of foreign nations, and I am grateful that the 
underpinnings of our security have kept our citizens safe and 
ensured our free-market economy thrives.
    However, we have seen changes in this dynamic recently with 
the crisis in several Arab nations, with the rise of a rapidly 
developing China, and even with the sustaining of combat 
operations in Iraq and Afghanistan. I am not confident that the 
Department of Defense has the necessary infrastructure and 
strategic partnerships that are necessary to confront these 
diverse and dynamic challenges.
    I believe that our force structure needs to be better 
aligned with emerging threats. A good example of this 
realignment effort is located in my Ranking Member's home of 
Guam. I believe that this location will serve to enhance our 
forces in Eastern Asia against those who believe that we are 
not committed to freedom and prosperity in this strategic 
region.
    In addition to Guam, I believe that it is critical that we 
expand our basing structure in the Western Pacific to encompass 
nontraditional partners that are aligned with our strategic 
interest.
    On the other hand, an example of a strategic misalignment 
is at Naval Station Mayport, where the Navy has proposed to 
place a redundant capability that will cost significant funds 
to support a second carrier homeport on the East Coast. Our 
strategic investment should be both wise and cost-effective. 
Unfortunately, the Navy's support of a second homeport in 
Mayport is neither and reverses a series of decisions by 
previous Navy leadership to limit strategic homeport concepts.
    As to other issues included in the President's budget 
request, I am also concerned about financial parameters that 
drive poor decisionmaking. For example, I was surprised to note 
that the Navy decided to enter into an energy-efficiency 
contract where the financial payback was reported as an 
astounding 447 years. Even after this was pointed out by the 
inspector general, the Department decided to continue with this 
project.
    I was also surprised that the entire Department of Defense 
uses construction cost indices that are 25 percent to 40 
percent more than similarly commercially built facilities.
    My friends, with savings of only 25 percent in the military 
construction program, which could represent an annual savings 
of almost $4 billion, we could build significant capabilities 
and really provide a result that would correct years of neglect 
and allow us to make prudent strategic investments in diverse 
areas around the world. Good enough is not good enough for the 
fine men and women in uniform.
    On a final note, we are in the final year of implementing 
the BRAC [Base Closure and Realignment] program, and there are 
many recommendations that contain significant risk in 
completing by the statutory deadline of September 2011. I want 
to be very clear that any risk to the mission of the United 
States in this time of war needs to be properly limited to 
ensure the success of our efforts.
    I will not jeopardize patient care for our wounded warriors 
if their care will be impacted by a BRAC move. And I look 
forward to our witnesses' discussing the risk of the BRAC moves 
to determine if additional time is necessary to properly 
complete the remaining BRAC recommendations.
    Joining us today to discuss these issues are four 
distinguished individuals. Dr. Dorothy Robyn, Deputy Under 
Secretary of Defense for Installations and Environment. We also 
have the Honorable Katherine Hammack, Assistant Secretary of 
the Army, Installations, Energy, and Environment; the Honorable 
Jackalyne Pfannenstiel, Assistant Secretary of the Navy, 
Energy, Installations and Environment; and the Honorable Terry 
Yonkers, Assistant Secretary of the Air Force, Installations, 
Environment and Logistics.
    Ladies and gentlemen, we thank you all for your service to 
our country and thank you so much for taking time to share your 
experience and expertise with us this afternoon. I know our 
Members are going to appreciate and learn a great deal from 
your testimony.
    And now I would like to recognize the Ranking Member, Ms. 
Bordallo, for any comments she may have.
    Ms. Bordallo.
    [The prepared statement of Mr. Forbes can be found in the 
Appendix on page 29.]

STATEMENT OF HON. MADELEINE Z. BORDALLO, A DELEGATE FROM GUAM, 
           RANKING MEMBER, SUBCOMMITTEE ON READINESS

    Ms. Bordallo. Thank you very much, Mr. Chairman.
    And to all our witnesses, I look forward this afternoon to 
your testimonies.
    Today, we are going to discuss a critical component of our 
military's readiness, which is the Department of Defense's 
military construction program. The fiscal year 2012 President's 
budget request for military construction and BRAC is $14.7 
billion. However, this represents a 21-percent reduction in 
military construction funding over the previous fiscal year.
    This amount includes necessary investments to modernize 
aging facilities, construct new facilities, accommodate the 
realignment of military forces abroad to bases within the 
United States, and complete the 2005 base closure 
recommendations.
    I do remain concerned about the 21-percent reduction in 
military construction funding over the previous year. I 
recognize that, as BRAC 2005 winds down, the construction 
requirements will diminish, as well. But we appear to be taking 
a shortsighted approach to sustaining these new facilities by 
not funding sustainment to the Department's own standards.
    Military construction is a proven jobs creator. In a time 
of economic downturn, I hope the Department and each of the 
Services will continue their efforts to modernize their current 
facilities that warrant such investments.
    On Guam, for instance, we are beginning a significant 
military buildup. Secretary Pfannenstiel, I know that task 
orders were recently awarded after the signing of the 
programmatic agreement, and I am pleased to see major 
construction groundbreaking finally taking place.
    The military buildup on Guam is not only a job creator, but 
is important to our national security interests in the Asia 
Pacific region. We live on a tough block on the world stage. 
And having freedom to access from Guam is hard to quantify. 
Although the military buildup on Guam requires tangible 
progress in Japan, I believe as Admiral Willard testified to 
the full committee last week, that we are seeing signs of 
tangible progress, and there will be a number of milestones 
along the way.
    Further, I would reiterate the Admiral's point that the 
Japanese, despite the horrific disaster they have experienced, 
remain committed to the Guam international agreement. As we 
move forward, I know this committee will continue its strong 
support for this strategically important move, and we must 
continue to take steps to ensure that this buildup is done 
right.
    Our hearing is also going to focus on the Department's and 
each Service's effort to diversify their installation energy 
demand. It is important to note that our energy conservation 
and alternative energy development efforts both support our 
warfighter in an operational capacity, as well as reduce demand 
on our installations.
    But today, we will be focusing only on our installations. 
It is estimated that our military installations spend nearly $4 
billion per year in energy costs. Finding ways to reduce this 
cost and diversify our energy portfolio while still protecting 
readiness will improve our national security by reducing demand 
on foreign oil, as well as reducing costs.
    I am interested in what efforts as part of the Secretary of 
Defense's efficiencies initiative have been focused on reducing 
costs through alternative energy savings. I feel this is 
something that needs to be continued to be addressed, and I 
know this committee wants to work with the Department to make 
these efforts successful.
    Finally, I want to hear more from each of the Services 
about their ability to finalize their plans for completing BRAC 
moves by the end of this fiscal year, which is a mere 6 months 
from now. What steps are the Services taking to complete their 
BRAC moves on schedule and can all of the moves be completed on 
time without unnecessary cost increases or unwarranted impacts 
on local communities?
    If not, what action is the Department contemplating to 
ensure that local communities are not overburdened? And what 
tools is the Department providing the Services to complete 
their BRAC actions in a timely fashion? We want to know how 
this committee can help make this effort successful.
    So, again, Mr. Chairman, I thank you. And, again, I feel 
this hearing is very important to the readiness of our forces. 
Having the facilities needed to complete missions is essential, 
and I look forward to the questions and the testimonies.
    Mr. Forbes. Thank you, Ms. Bordallo.
    And we discussed prior to the hearing, I ask unanimous 
consent that we dispense with the 5-minute rule for this 
hearing and depart from regular order so that Members may ask 
questions during the course of the discussion. I think this 
will provide a roundtable-type forum and will enhance the 
dialogue on these very important issues.
    Without objection, so ordered.
    I want to thank all of our witnesses for being here. We are 
looking forward to your comments.
    I think I have explained to each of you privately that we 
have a little different format. It is a very bipartisan 
committee. We work very well together. And rather than having 
the complete staccato kind of questioning you get in a lot of 
committees, if one of their Members, it is their time to ask a 
question and somebody has a brief follow-up, we will allow them 
to do that, even if it is out of turn, just to keep that train 
of thought.
    Also at the end, if there is anything else you want to say 
or correct that you said, don't think you are in a box and 
can't do that. We are going to give you plenty of time to do 
it. If someone says something and you would like to extrapolate 
on what they said, feel free to let me know and we are happy to 
recognize you. We hope that this just gets information out that 
helps us make sure that our forces are ready.
    So if you don't have any questions, Secretary Robyn, we are 
going to let you start off, if you would. And we will give each 
of you about 5 minutes. Don't hold you hard and fast to that 
time period, but I know you have given us prepared remarks. We 
read those, and we have already gotten them. If you can, just 
talk to us for--take 30 seconds or 5 minutes, whatever you 
need, and tell us what you think are the most important things. 
You don't have to read those prepared remarks. But if it makes 
you more comfortable, feel free to do it.
    Ms. Secretary.

   STATEMENT OF DR. DOROTHY ROBYN, DEPUTY UNDER SECRETARY OF 
             DEFENSE, INSTALLATIONS AND ENVIRONMENT

    Dr. Robyn. Let me thank you, Chairman Forbes, Congresswoman 
Bordallo, distinguished subcommittee Members. It is a pleasure 
to be here today to talk about the President's budget request 
for military construction and environmental programs.
    Let me throw out three numbers, and let me address two 
crosscutting themes or crosscutting priorities. First number, 
which Congresswoman Bordallo mentioned, $14.8 billion. That is 
our request for MILCON [Military Construction], family housing 
programs, and BRAC. That is down about $4 billion from last 
year. And as you say, that is predominantly due to the fact 
that we are nearing the end of the BRAC process.
    Second number, $17.9 billion. That is our request for 
sustainment and recapitalization of existing facilities. That 
number is up by about $4 billion, due largely to the efforts by 
the Army and the Air Force to upgrade their existing 
facilities.
    Third number, $4.3 billion for environmental programs. That 
represents steady state, and it is a reflection of the maturity 
and stability and, I would say, the success of our ongoing 
efforts in that area.
    The two crosscutting themes, priorities that I want to 
briefly talk about is energy and then technology. In the energy 
area--and, Mr. Chairman, I know this is a strong interest of 
yours, and I loved your op-ed, and I think you said it very, 
very well. In fact, I am going to quote one sentence. ``Energy 
efficiency is often framed as an environmental issue, but it is 
first and foremost a national security issue.'' And that is 
very much how we think about it.
    It is important to the Department, the facility energy, for 
two reasons. The first is cost. We spend $4 billion a year on 
facility energy, and even by DOD [Department of Defense] 
standards, that is real money.
    Second is mission assurance. Our installations support 
combat operations more directly than ever before. We fly UAVs 
[Unmanned Aerial Vehicles] from our installations. We fly long-
range bombers. We analyze battlefield intelligence data in real 
time. Our installations in turn depend on a commercial 
electricity grid that is vulnerable to potentially serious 
disruptions. So that is the mission assurance part of our 
concern about energy.
    We have a multifaceted strategy: reduce demand, expand 
supply of alternative energy sources, and improve our energy 
security. These efforts, I just want to reiterate, are not 
designed--they will green our military installations, but that 
is not the reason we are doing them. We are doing them because 
they will achieve significant cost savings and improve our 
mission assurance.
    We believe they are smart, with a couple of exceptions, and 
we can address the one that you mentioned, Mr. Chairman. These 
are smart investments that will pay for themselves over time, 
many times over.
    Second, I want to--I want to highlight technology. This is 
the Department's strong suit. This is why we are able to 
prevail in an operational setting. And the same is true in an 
installation setting.
    And let me give you two examples. The Department has a $17 
billion bill for cleanup of unexploded ordnance, UXO. That is 
known ordnance above ground; that is not what is underwater. 
The reason it is so expensive is because we don't have--we have 
not had the technology to distinguish between bombs and beer 
cans. We can't discriminate between unexploded ordnance and 
scrap metal.
    A program that I oversee has spent 10 years investing in 
industry and universities to develop the technology to--that 
can distinguish between bombs and beer cans. And we now have 
that technology. We need to demonstrate it in a lot of 
different settings in order to get regulatory buy-in, but we 
think that can save the Department between $10 billion and $12 
billion. That is the power of technology.
    And let me give you another example. The same organization 
that has been so successfully investing in UXO discrimination 
technology 2 years ago began a program, a competitive program 
to--that uses our installations as a virtual test bed for next-
generation energy technology. These are technologies that have 
the potential to dramatically improve our energy performance, 
but that face major impediments to commercialization because of 
the unique nature of the building energy industry.
    We have been doing this for 2 years. For those technologies 
that prove--that succeed, that prove out in the demonstration, 
we can then go on and use our significant buying power as the 
Department to make a market for those technologies, much as we 
did with aircraft, electronics and the Internet. We have about 
40 projects underway, and we expect to have results beginning 
this year.
    So there is a lot of exciting work going on. And I didn't 
even mention BRAC, Guam, and construction costs, but I would be 
delighted to talk with you about those.
    [The prepared statement of Dr. Robyn can be found in the 
Appendix on page 31.]
    Mr. Forbes. I think you can rest assured that you will get 
an opportunity to do that as we move forward.
    Secretary Hammack.

STATEMENT OF HON. KATHERINE G. HAMMACK, ASSISTANT SECRETARY OF 
        THE ARMY, INSTALLATIONS, ENERGY, AND ENVIRONMENT

    Secretary Hammack. Thank you, Chairman Forbes, 
Congresswoman Bordallo, and other distinguished Members. 
Delighted to be here, and I want to thank you for your support 
of the Army over the years.
    Certainly, the three things that I want to talk about are 
BRAC. Also efficiencies and energy, as you both cited, were 
critical components, especially of interest to this committee. 
We are fighting two wars, and we have been working over the 
last several years to diligently support our forces with the 
facilities that they need in order to train and then to come 
back and reset from some of the challenges that they are 
facing. We are working to reduce our energy footprint and 
remain good stewards of the environment. So with all of those 
coming on at once--and then BRAC, at the same time.
    And to the Army, BRAC was an $18 billion program of which 
$13.5 billion was in construction. And doing that at the same 
time you are rotating the forces, at the same time you are 
fighting the wars has been an extreme challenge. We are closing 
12 bases. We are closing 176 Reserve installations and 211 
Guard closures. At the same time, we are creating three new 
four-star headquarters and eight joint and Army Centers of 
Excellence, at the same time we have sort of a new concept, 
which is the Armed Forces Reserve centers, where we have both 
the Guard and Reserve in the same location. We have 125 of 
those we have stood up.
    And so these BRAC programs that we have been undertaking 
will return efficiencies and savings over the long term, but 
right now, we are still in the middle of it. We are coming to 
closure. And we are on target to meet the deadline.
    We have six projects, which we consider high-risk. One of 
those is Walter Reed Medical Center. And we want to ensure that 
we don't do anything that would jeopardize a soldier or any 
military personnel, so we are watching very closely to ensure 
that the new facilities we need are stood up and properly 
certified so that we can move our soldiers over and not 
jeopardize care. So that is probably the most critical to the 
Army that we are watching right now.
    But again, we are on target. The schedules are in place. We 
are just watching them very carefully.
    The efficiencies--I mean, I talked about the efficiencies 
through BRAC, but there are other efficiencies, one of which is 
under discussion with Secretary Gates. We deferred $1.4 billion 
in MILCON. And I know some have thought that that is a risk, 
and certainly we looked at it and we feel it--the projects that 
we deferred are low- and medium-risk to readiness.
    And I use the word ``deferred'' purposefully, because those 
projects that were deferred will recompete on a basis of need. 
And we are looking very closely at our facilities strategy to 
ensure that we are correcting capacity and condition. And those 
are two reasons to build new, in that you are overcrowded or 
you have moved a new unit in, and they are in temporary 
structures, and you need to build the facility, or that the 
condition is a very poor condition or you have a roof 
collapsing or there is a real need.
    So our--as we go forward, our military construction program 
is going to be much more closely scrutinized and evaluated 
with--as Dr. Robyn pointed out--more focus on the restoration 
and modernization of existing facilities and using what we have 
now more prudently.
    We have had some bid savings in construction. And in those 
bid savings, we have returned about $1 billion to the Treasury. 
We have retained some of the bid savings to help out in areas 
where there have been challenges or areas that were 
unanticipated. Some of these reprogramming are to repair storm-
damaged facilities, such as at Fort Leonard Wood. We also had 
some freeze challenges in the Southwestern United States over 
this winter. Or it can be to unanticipated challenges, and we 
have a couple of those we can talk about later.
    But as I said, we are reviewing our facility standards 
model, also, what kind of facilities we are using. Is it the 
most prudent design? We are undertaking several simulations of 
the buildings to look at energy use. So we are really taking a 
whole new look at the way we do MILCON in the Army.
    Energy is very important to us. Reducing our energy use per 
square foot, more efficient structures, more efficient power 
generation, looking at reducing the amount of energy we use 
first, and then looking at repurposing energy and, last of all 
generating energy, and doing it in a cost-effective manner is 
very important.
    So I don't want to take up too much time. I look forward to 
working closely with you and answering any questions you might 
have.
    Thank you.
    [The prepared statement of Secretary Hammack can be found 
in the Appendix on page 51.]
    Mr. Forbes. Thank you.
    Secretary Pfannenstiel.

 STATEMENT OF HON. JACKALYNE PFANNENSTIEL, ASSISTANT SECRETARY 
       OF THE NAVY, ENERGY, INSTALLATIONS AND ENVIRONMENT

    Secretary Pfannenstiel. Thank you, Chairman Forbes, 
Congresswoman Bordallo, and Members of the committee.
    I am pleased to appear before you today to provide an 
overview of the Department of the Navy's investment in shore 
infrastructure. I did provide an extensive written statement. I 
won't go over that. I would just like to highlight a couple 
points from that statement.
    In overview, the Department's fiscal year 2012 budget 
request includes a $13.3 billion investment in our 
installations. That includes military construction, 
sustainment, restoration and modernization, BRAC, family 
housing, environment, and base operating support.
    The military construction portion of that request of $2.5 
billion is significantly less than our 2011 request of $3.9 
billion, primarily due to the completion of the Marine Corps' 
barracks initiative and a more deliberate pace for the Guam 
buildup.
    The military construction budget, though, does include 
further investments to relocate the Marines from Okinawa to 
Guam. The Marine Corps relocation, with other Department of 
Defense efforts to align forces and capabilities at Guam, 
represents a unique opportunity to strategically realign the 
U.S. force posture in the Pacific for the next 50 years. This 
is a major effort and one that we must get right for both the 
military families and the people of Guam.
    I am pleased to share with you that we recently achieved an 
important milestone in the realignment, the finalization of the 
programmatic agreement. After 3 years of consultations, we may 
now move forward with executing military construction 
associated with the realignment and preparing a record of 
decision for the training ranges.
    Fostering a long-term positive relationship with the people 
of Guam is essential to the success of the Marine Corps mission 
in the Pacific. The finalization of the programmatic agreement 
is evidence that the Government of Guam and the Department of 
Defense can work closely together on solutions.
    This is an important year for the realignment program. As 
Congresswoman Bordallo pointed out, construction is imminent 
and additional contracts will be awarded over the next several 
weeks and months at a sustainable pace that Guam can support.
    Building on the fiscal year 2010 and 2011 projects, the 
projects we are proposing in fiscal year 2012 enable future 
vertical construction, support the introduction of off-island 
workers, and support future operations. Further, the Government 
of Japan's fiscal year 2011 budget includes financing for 
critical utilities projects that will support relocating 
Marines in the long run and the ramp-up of construction in the 
near term.
    The Department is on track to implement BRAC 2005 
realignments and closures by the statutory deadline of 
September 15th. Going forward, our fiscal year 2012 budget 
request of $26 million enables ongoing environmental 
restoration, caretaking, and property disposal at BRAC 2005 
installations.
    The Department has made significant progress in the past 
year and to date has completed 328 of the 485 realignment and 
closure actions as specified in our business plans.
    Additionally, the Department of the Navy has increased its 
investment to support President Obama's energy challenge and 
Secretary Mabus' aggressive energy goals to include energy 
security, reduce our dependence on fossil fuel, and to promote 
good stewardship. We have requested $1.2 billion in fiscal year 
2012 and $4.4 billion across the FYDP [Future Years Defense 
Program] for shore and operational energy efficiencies.
    Members of the committee, your support of the Department's 
fiscal year 2012 budget request will ensure that we build and 
maintain the facilities that our sailors and marines need to 
succeed in their military and humanitarian missions, even as 
the challenges we face multiply.
    Thank you for the opportunity to testify before you today. 
I look forward to answering your questions.
    [The prepared statement of Secretary Pfannenstiel can be 
found in the Appendix on page 67.]
    Mr. Forbes. Thank you.
    Secretary Yonkers.

STATEMENT OF HON. TERRY A. YONKERS, ASSISTANT SECRETARY OF THE 
      AIR FORCE, INSTALLATIONS, ENVIRONMENT, AND LOGISTICS

    Secretary Yonkers. Chairman Forbes, Congresswoman Bordallo, 
and Members of the House Armed Services Committee, first of 
all, let me say thanks for the invitation to be here today and 
have the chance to talk to you about the Air Force's military 
construction and family housing, environmental, BRAC, and 
sustainment, restoration, modernization programs.
    And I would like to start off by saying thank you, also, 
for the hard work last week to get us through this critical 
juncture on the business of shutting down the Government and 
looking forward to the next critical step, and that is the 
continuation for the appropriations that we are going to need 
to execute our fiscal year 2011 programs.
    The Air Force's fiscal year 2012 budget includes $2 billion 
for construction in BRAC; $1.4 billion of that is for military 
construction, $500 million is for family housing, and $125 
million is for legacy BRAC, and most of that is going into 
environmental cleanup.
    BRAC 2005, our most recent BRAC round, as with the Navy, we 
are on target to hit all of the statutory goals by the 
September 15th deadline. Out of the 400 or so separate actions 
that we have in our business plan, we are at about 320 right 
now, and we don't expect any hiccups in the eventuality of 
fulfilling all of those. Our budget is $3.8 billion, and we are 
staying within that budget for BRAC 2005.
    Want to talk a little bit about sustainment, restoration 
and modernization. Our fiscal year 2012 budget request is for 
about $3 billion for SRM; $2 billion of that is for 
sustainment; the remainder is for restoration and 
modernization.
    I know there has been some concern about the investment in 
sustainment, and that is $300 million less than it was in 
fiscal year 2011. But I want to tell you, over the course of 
the last few years, we have taken a look to try to get more 
efficient and identified requirements more vigilantly with 
regards to sustainment.
    And so we are looking at this from a business point of 
view. We are looking at it from a return-on-investment point of 
view. We are looking at it from a better contracting point of 
view. And we are also infusing dollars into demolition and 
consolidation that by virtue of reducing our footprint in our 
facilities, that will also reduce the investment that we need 
to put into sustainment. At the same time, we are increasing 
our dollar investment in restoration and modernization.
    I want to talk a little bit--as have my cohorts--about 
efficiencies. We all recognize how critical it is to deal with 
deficits and debts, and we are all in it with you together 
here. Congresswoman Bordallo asked about some of the 
efficiencies, so let me tell you about a few of the ones that 
the Air Force has implemented. Over the FYDP, for example, 
through this SRM [Sustainment, Restoration, and Modernization] 
reduction in the facility sustainment in particular, we are 
looking at a $1.6 billion reduction in cost.
    As we looked at our weapons system sustainment, we would 
look at efficiencies on the order of $3 billion over the FYDP 
and doing business better in our weapons systems.
    In our environmental cleanup program, we have refocused our 
efforts on closing sites and using innovative contracting 
mechanisms like performance-based restoration. We are 
expecting, as has the Army already experienced, somewhere on 
the order of a 30 percent to 40 percent reduction in our 
overall cleanup program through the FYDP based on a $500 
million investment that we are using right today.
    Likewise, we have also taken a look at our environmental 
impact analysis process. And we are going to be looking at that 
from a get-back-to-basics point of view, looking at the Council 
on Environmental Quality guidelines, and streamlining the 
process. We are expecting to find somewhere between $10 million 
and $15 million a year from that.
    The point I am trying to make is that every day we wake up, 
we look at, what is it that we need to do to get a bit more 
efficient than we have in the past? And there is nothing in the 
portfolio that we are not looking at.
    I want to talk a little bit about energy, if you will allow 
me, as well. We are using the smart tools. And as we have seen 
across the Department, with regards to finding better 
efficiencies in our facilities, and have actually achieved a 33 
percent reduction in the last 7 or 8 years, even though costs 
of business have increased. We are utilizing LEED [Leadership 
in Energy and Environmental Design] silver standards to 
increase efficiency for all our new buildings.
    And in operational energy, ma'am, we are looking at $700 
million savings over the FYDP and looking at better ways of 
reducing loads in the way we fly, the routes that we fly, and 
our utilization of jet fuel. Our goal for the Air Force is 10 
percent. That will equate to about $700 million per year, once 
we are able to achieve that goal.
    So I want to stop it at that point in time, and I want to 
say thank you very much, again, for your strong support of the 
United States Air Force over the past and what you do for our 
airmen. And I also look forward to your questions.
    [The prepared statement of Secretary Yonkers can be found 
in the Appendix on page 99.]
    Mr. Forbes. Thank you, Secretary Yonkers.
    And I want to thank all of you for your testimonies. And I 
always defer my questions until the end so the Members can ask 
theirs, and hopefully they have covered everything.
    But I am going to start with just one question for you, any 
of you that want to take it. And I want to begin where 
Secretary Yonkers left off. He said there is not a day that you 
don't ask the question, what is it we need to do to be more 
efficient than we were in the past?
    And as all of you know, we are wrestling with budget cuts 
every place we look and so-called efficiencies and things that 
are taking place. I saw a story the other day that somebody was 
telling me about, when somebody opened a fuel tank and they 
couldn't tell how much fuel that was in there, so they took the 
top off and lit a match to see. I don't have to tell you, it 
wasn't a happy ending.
    And I remember when they told me, I said, ``Tell me that is 
not true.'' And they said, ``I hate to tell you, it was true.''
    We are looking--we are going to have some questions later 
that talks about the fact that when DOD budgets for a facility, 
it is normally as much as 40 percent more than the private 
sector would do. That is something we would just say, ``Tell us 
that is not true.''
    We have a Navy project we are going to talk about in a 
little while that the I.G. [Inspector General] says has a 447-
year return on investment. And we know that may not be totally 
true, but anyone of those parameters, we are going to say, 
``Tell me that is not true.''
    But here is the question. Right before I came over here, I 
got handed some information on the Mark Center down here. You 
know the albatross we are looking at. We don't have the 
infrastructure. We might not get in there and be able to use 
it. And we have got information breaking that we are thinking 
about spending $600,000 for a statue, one of the finalists 
being a fairy riding a toad.
    To the American people, that is just as foolish as if we 
opened that tank and hold a match over it. I have just got to 
say: ``Tell me that is not true.'' With all these cuts, we are 
not spending $600,000 for a statue in front of that center, 
especially when one of the--I don't care if it is Ronald Reagan 
shaking hands with Bill Clinton. I mean, it is still $600,000 
of money that people are going to go livid over.
    Can you shed some light on that story? Is it accurate, or--
--
    Secretary Hammack. I can certainly shed some light on it. 
And it is, I think, entertaining to all of us that sometimes 
the media picks that which will gain the most attention.
    Mr. Forbes. That one has.
    Secretary Hammack. And the fact that it broke on April 
Fool's Day----
    Mr. Forbes. So it is not true?
    Secretary Hammack [continuing]. Made it much more 
interesting. That was a submitted entry in a competition run by 
the city of Alexandria. In the development of the 
transportation center, which is the public face of the Mark 
Center, the city of Alexandria said, you need to do something. 
It is concrete walls. It looks like a bomb shelter. You need to 
do something. Can you dress it up? And they referenced the GSA 
[General Services Administration] art initiative, which is half 
of 1 percent of construction costs goes toward some sort of 
public art.
    So we took a look at it and came up with a much lower 
figure of not to exceed $600,000 for some sort of mural and 
potentially a statue in the transportation center. And a 
competition was set up.
    That was one of the submittals. We are taking a look at all 
of the submittals. We are also taking a look at some of the 
offers we have had of more military-themed statuary that could 
go there, but we are looking at some sort of mural on the wall.
    Mr. Forbes. But wasn't that more than just a submittal? 
Wasn't it one of the four finalists?
    Secretary Hammack. The artists were demonstrating their 
capability for artwork, and that was a demonstration of the 
kind of artwork that that artist----
    Mr. Forbes. And I don't want to play this. We have got a 
lot of other issues. The only thing I just want to let you 
know, it is--we don't even have the roads to go to that 
building. We may not be able to occupy it. And when we tell the 
public--I am just telling you what we are wrestling with. When 
we tell the public we are going to spend $600,000, I don't care 
what we are beautifying--I mean, you know, we could put that to 
infrastructure to get there--it is a hard sell for us.
    And we are over here fighting for you guys. And I am not 
blaming any of you. I know this is out of your hands. But I am 
just saying, that is a tough thing for us to have to go back 
and argue we can't make cuts when we are spending that kind of 
money for statues.
    Ms. Bordallo.
    Ms. Bordallo. Thank you very much, Mr. Chairman. Maybe we 
can get some private donations for such artwork. I know I just 
saw it.
    First of all, I want to ask a couple of questions here, and 
I would like to start, Mr. Chairman, by asking a few questions 
for my good friend, Congresswoman Gabby Giffords. She is a 
member of the Readiness Committee, and she has consistently 
been a champion on Capitol Hill for DOD energy efforts. She was 
also the author of the DOD Energy Security Act.
    So this is for any of the witnesses. I think maybe, Dr. 
Robyn, you might be able to answer this. I know Gabby applauds 
the Services' proactive development of strategic thought toward 
energy and how it is used. She would like to ensure the DOD has 
all the resources and permissions required to continue your 
efforts.
    However, some issues remain. So who and where is the single 
agency responsible for DOD's operational energy research and 
development? How does DOD disseminate lessons learned and best 
practices for operational energy projects? And do you think 
that if DOD had a formal process that all service members with 
boots on the ground would be equipped with a solar portable 
alternative communication energy system or spaces or rucksack 
enhanced portable power system or REPPS [Rucksack Enhanced 
Portable Power System]-like capability?
    So if you could, just enlighten me on those three. Yes?
    Dr. Robyn. Yes, I met with Congresswoman Giffords last 
year, a year ago January, and I know that Senator Udall is 
working with her to reintroduce the Energy Security Act, which 
I think is terrific. And we worked fairly extensively with her 
staff over the course of a couple of months last year, one 
member of whom is here today.
    Most of her questions pertain to operational energy, and 
within--that is actually a separate person in the Department of 
Defense, Sharon Burke. You all created the position of 
Assistant Secretary for Operational Energy, and we nominated 
and the Senate confirmed Sharon Burke. She has been on board 
about a year now and doing a terrific job of being the OSD 
[Office of the Secretary of Defense] person who heads up that.
    Each of the Services is being very, very active. And so, 
for example, Jackie can talk about the amazing things that the 
Marines are doing in their expeditionary--their EXFOB 
[Experimental Forward Operating Base] at Quantico and the 
technology they are taking to theater.
    But the single point of contact cutting across the 
Department is Sharon Burke in this newly created office. And it 
has gotten a lot of visibility. We put on an Energy Awareness 
Day this year, and Chairman Mullen, among others, came and 
spoke very, very passionately about it, so it has really--I 
think it is a very, very high priority for the Department. And 
I think the Services are working very closely to share lessons 
learned on it.
    I am not sure--I don't think I can speak to the issue of 
whether there are authorities or resources that we need that we 
don't have. I will let my colleagues----
    Ms. Bordallo. I think a follow-up question would be, could 
you explain what fiscal efficiencies would be gained from a 
department-level research and development effort similar to the 
Marine Corps EXFOB, which was what you were talking about, 
experimental forward operating base?
    Dr. Robyn. I think--let me take--do you want to----
    Secretary Hammack. And that came out of a joint effort. Out 
at Fort Irwin, the Services got together, and so it was work on 
tents, it was work on operational energy, it was work on 
generators, it was work on power distribution, and the Services 
got together.
    You talk about the rucksack enhanced power system, REPPS, 
which is called SPACES [Solar Portable Alternative 
Communication Energy System] in the Marines, it is the same 
system. We just have two different names. The Army has deployed 
several hundred of them. The Marines have deployed several of 
them, as well. It is the same system. It is a shared system 
that we are both using. So there are some great work, joint 
work that is going on between the Services on operational 
energy.
    Ms. Bordallo. Well, thank you. Thank you very much.
    Ms. Pfannenstiel.
    Secretary Pfannenstiel. Yes, let me just add that the--part 
of this is homegrown within the Services. They find needs. And 
with the Marines, they have offered a couple rounds now where 
they have asked for technology providers who might be able to 
meet their needs in theater to come to Quantico or to 
Twentynine Palms and demonstrate what they have.
    And in a couple of these cases, I think it is really 
telling that from the first demonstration at Quantico or 
Twentynine Palms, the Marines then take the technologies that 
seem the best fit for their needs and try them out in some test 
form, and then they are in theater in some cases in 6 months or 
8 months. I mean, and then they share this across the Services 
so that they are all understanding the technologies.
    Ms. Bordallo. Thank you.
    Dr. Yonkers, did you want to add----
    Secretary Yonkers. Yes, ma'am. Thank you for the chance. 
You probably are well aware of the efforts that we all have 
underway with regard to alternative fuels, and particularly 
synthetics and bios and cellulosics. And I think it is fair to 
say that we spend a fair amount of time talking to each other 
and sharing information about how we can look at alternative 
fuels and the certification process that we are utilizing right 
now for our jet aircraft.
    I mentioned the $700 million efficiencies that we have 
already identified and the $700 million that we will try to get 
to. Part of it is hinged on the utility or using biofuels and 
synthetic fuels as a replacement for fossil fuels in our 
aircraft.
    And Jackie and I have been speaking closely about this, 
because the Navy and the Marine Corps fly aircraft like we fly 
aircraft, and also with Katherine, because we have tactical 
vehicles that could use the same fuel.
    Ms. Bordallo. Thank you. Thank you very much.
    And I have another question for another one of my 
colleagues. This is on behalf of my good friend, Congressman 
Sam Farr.
    Dr. Robyn, can your office assist with joint civilian-
military projects which also need coordination between Active 
and Reserve units who wish to perform an innovative readiness 
training program that will have positive benefits on the 
environment? Is that a yes or a no?
    Dr. Robyn. Yes.
    Ms. Bordallo. Yes, you can. Well, okay, for example, there 
is a situation in Congressman Farr's district concerning the 
removal of the San Clemente Dam and redirecting the Carmel 
River that would provide a training opportunity for National 
Guardsmen or reservists. The dam removal project is an effort 
that seems bogged down in bureaucracy, despite its benefits, 
such as training for the service members, removal of a 
hazardous dam, and restoration of key fish habitat.
    The land in question is slated to be conveyed to the BLM 
(Bureau of Land Management) once the dam is gone. It is rare 
that our service members have this kind of real-life training 
opportunity, so I know that this type of innovative readiness 
training has been done in California before, especially along 
the border with construction of a new fence.
    So can you work with me and Congressman Farr to see if 
there is a way to give our National Guardsmen or reservists the 
practice and training they need in real life, real time, while 
at the same time using your expertise on DOD environmental 
issues to establish civilian-military collaborations like at 
the San Clemente Dam? And what can be done in this situation or 
others like it?
    Dr. Robyn. Yes, I would be happy to work with you and 
Congressman Farr on that.
    Ms. Bordallo. All right. Thank you very much.
    Dr. Robyn. I will take that as a question for the record.
    [The information referred to can be found in the Appendix 
on page 117.]
    Ms. Bordallo. Thank you.
    Mr. Chairman, I do have my own questions, but I will wait 
for the second round.
    Mr. Forbes. Thank you, Madeleine. That is kind of you.
    I would like to now recognize the gentleman from New 
Jersey, Mr. LoBiondo, for 5 minutes.
    Mr. LoBiondo. Thank you, Mr. Chairman, very much.
    And to our panel, thank you for being here today and for 
the work you do on behalf of our Nation.
    For Dr. Robyn, as you have stated previously, the U.S. 
Department of Defense has set aggressive goals to procure 7.5 
percent of its electricity from renewable energy by 2013 and 25 
percent by 2025. As the price of oil continues to skyrocket due 
to the conflicts in the Middle East and for other reasons, 
replacing costly fossil fuels with proven and effective 
renewable energy technologies is a necessary move for the 
taxpayers for their pocketbook and for our Nation's security. I 
think it is a big homeland security issue.
    As the world's largest consumer of energy, spending over 
$20 billion a year as I understand it, DOD has a special 
responsibility to lead by example when greening the Government. 
Its enormous purchasing power helped create a new market for 
renewable energy technology projects, making them more 
affordable for everything.
    However, when the Department makes it renewable energy 
procurement decisions, are the implications of those purchases 
on our Nation's energy security considered when those are made?
    And there will be one more question here. New Jersey is the 
sixth-largest solar market in the world and, within the United 
States, the second-largest, only behind California. A lot of 
people don't realize that. The solar sector is one of the 
segments in New Jersey's economy that is growing, bringing with 
it jobs.
    As such, I am interested to know if the DOD is purchasing 
foreign-manufactured solar panels. And if the answer is yes, 
were American-manufactured options considered in such 
instances? If yes, why were they rejected? And also, what 
efforts, if any, is the Department taking to provide the proper 
guidance to the energy managers on the ground to at least 
consider American renewable technology in their procurement 
portfolios?
    Dr. Robyn. Thank you. Thanks for the question.
    We certainly are taking security into account when we think 
about renewable projects. I am not saying we have not in the 
past been compliance-oriented. We are. We have got goals. We 
are trying to meet those goals.
    But particularly in the renewable area, we look at them 
with an eye to, will this enhance the security of an 
installation when combined with other investments, in 
particular microgrid technology, where we are doing a lot of 
fairly cutting-edge work?
    The combination of microgrid technology, renewables, and 
storage capacity, again, that is cutting-edge technology, but 
will allow us to island, to separate off critical--not 
necessarily the entire installation, but critical missions on 
an installation, and we increasingly see that as an important 
thing to be able to do in order to assure our mission.
    You would be surprised how many stories we hear about an 
installation--yes, I am sorry.
    Mr. LoBiondo. Excuse me for interrupting, and I want to be 
responsible to the time, and we are winding down.
    Dr. Robyn. I am sorry.
    Mr. LoBiondo. The question--I am interested to know, is DOD 
purchasing foreign-manufactured solar panels?
    Dr. Robyn. My understanding--there is new legislation, Buy 
America. I think the reason that legislation was passed was 
because, without it, most purchases would not be of----
    Mr. LoBiondo. Well, so the answer is----
    Dr. Robyn. It is a cost issue.
    Mr. LoBiondo. Okay. So there were--so we rejected buying 
American-made solar panels because they were more expensive? Is 
that what you are telling us?
    Dr. Robyn. Yes, that is my understanding. Can anybody 
else----
    Secretary Pfannenstiel. Congressman, I can say that we in 
the Department of the Navy have looked very carefully, and we 
will be buying American solar panels. I can't tell you whether 
there are any that currently have been bought in the past from 
non-American companies, but going forward, they will all be 
American-produced.
    Secretary Hammack. And from the Army's standpoint, I was 
just out at an installation that is doing a groundbreaking on a 
one-megawatt power plant. And they are panels that are made in 
the United States. They are actually made in New Jersey.
    Mr. LoBiondo. Okay.
    Mr. Chairman, thank you very much. Thank you again to our 
panel.
    Mr. Forbes. And if we could just ask all of our panelists, 
if they don't mind, if you could just check and, for the 
record, submit to the gentleman from New Jersey if we have been 
purchasing any in the past. Would that make you----
    [The information referred to can be found in the Appendix 
on page 117.]
    Mr. LoBiondo. Yes, thank you, Mr. Chairman. That would be 
very helpful.
    Mr. Forbes. The gentleman from North Carolina, Mr. Kissell.
    Mr. Kissell. Thank you, Mr. Chairman.
    And thank you to our panelists for coming, and especially, 
Dr. Robyn, good to see you again. It would be fair in saying 
that you have been very forthcoming in working with us and the 
BRAC operation down at Fort Bragg, where we have two of the 
four-star commands coming in, and we still face a lot of 
challenges as we look towards finishing this up and in terms on 
the base and also within the community. And we probably still 
have some conversations in that area forthcoming.
    A gentleman named Richard Kidd came to my office not long 
ago, is Deputy Assistant Secretary of the Army for Energy and 
Sustainability. Where does he fit in the--Secretary Hammack, 
where does he fit in, in terms of the reporting structure?
    Secretary Hammack. He works for me.
    Mr. Kissell. Okay. Well, I thought maybe that was the case. 
And we had good conversations. One of the concerns that I 
brought to him and had talked to, Mr. Chairman--actually, 
somebody else--Jamie Lynch, on our committee--is that the fact 
that there are ideas out there that we think or we may see as 
congresspeople that we think are pretty good, and we may not 
know how they compare to others, but we like to be able to show 
that to our committee staff or to have you guys look at it, 
because, you know--as good as you are, I doubt that you can see 
everything.
    And just wondering, you know, what might you all's process 
be for when there are ideas being brought to you, that--maybe 
that little guy, that they may not have the name or the 
background that might normally catch your attention real 
quickly, but they have some pretty good ideas? What is your 
response? And how does that fit in? And this is something that 
Mr. Kidd and I spent quite a bit of time talking about.
    Secretary Hammack. In the Army, we have RDECOM [Research, 
Development and Engineering Command]. That is up in Aberdeen. 
And what they do is they do a lot of filtering, that they take 
in a lot of different technologies and do a look at them and 
test them in comparison with other things. And if it looks like 
it is worthwhile, then it might go from their bench testing to 
a larger scale testing on an installation.
    Mr. Kissell. Well, and I am not going to ask each of the 
Members, but, you know, as different things might come your 
way, I do ask that we be open to this process, because we never 
know where that next best mousetrap may be, because it may not 
come from the normal way. And sometimes I think we get set in 
our patterns of purchasing and procurements and where we expect 
things to come from, and we may not--you know, gee, maybe I 
have seen everything I want to see for a while.
    You know, and sometimes I guess you reach that point, but 
please be open to that process, you know, because it is not 
about selling somebody's--we are not salespeople for 
businesses. But, you know, when we see ideas, that is what made 
this Nation great.
    And I would like to emphasize the idea of American ideas. 
So many times, we tend maybe not to recognize and reward those 
folks in America as much as we should.
    Secretary Hammack, you mentioned something about there were 
five or six things you were watching to make sure that they did 
happen, and you mentioned one being Walter Reed. I am curious, 
what are the others?
    Secretary Hammack. Three of them are National Guard or 
Reserve facilities. One of those facilities has had unfortunate 
ground conditions, in that the ground was prepared, and the 
next morning we went out there and there was a big sinkhole. 
And so we did additional soil testing and filled that sinkhole 
and got ready to start again. And I was just informed over the 
weekend that several more appeared.
    So we are not sure what is going on at that site, but it 
might be a non-buildable site, and we might have to find a new 
one. We are trying to figure out what is the best thing to do, 
because we certainly don't want to put up a building that is 
going to sink.
    We have some renovations that are going on over at Fort 
Belvoir, and those buildings are sort of waiting to be 
renovated until the group that is there moves to their next 
location. And so it is sort of the domino effect.
    When their facilities are ready, they move in. We renovate 
their facilities so the next group can move in. And it is a 
very tight schedule. We are watching it very closely. We think 
we will make it, but we don't want to do anything that would 
not make sense, and we want to be prudently watching the 
dollars and watching the deadlines.
    We are watching Mark Center, which is ready for occupancy 
August 9th, and looking at the move schedule to see how many 
people can move in there in that time, and that is something 
that is being handled by the DOD and OSD on the move schedule.
    So those are--I think I named all three, then.
    Mr. Kissell. Okay. Well, thanks so much.
    Thank you, Mr. Chairman. I yield back.
    Mr. Forbes. Thank you, Larry.
    The gentlelady from Missouri, Mrs. Hartzler, is recognized 
for 5 minutes.
    Mrs. Hartzler. Thank you, Mr. Chairman.
    First, I wanted to thank you, Secretary Hammack, for your 
work helping with Fort Leonard Wood after the tornado. That was 
very, very obviously destructive, and we are very thankful 
there wasn't any loss of life there. But I have been in close 
contact with General Quantock, and he has assured me that you 
all have been working on that and able to supply the funds to 
help rebuild.
    And I know they are going to come back even stronger. I 
know General Casey has been very supportive of that, and 
hopefully--are we still on track, I mean, by the end of this 
year, having that up and back and running, fully functioning?
    Secretary Hammack. We are still on track. I won't say 
everything will be done by the end of the year, but we are 
working to ensure that we don't sacrifice mission.
    Mrs. Hartzler. I had talked, I know, with General Quantock 
about building storm shelters. I have a little bit of 
experience growing up in the Midwest with tornadoes, as my--
when I was in high school, my grandparents' entire farm and 
their house, anyway, was lost in a tornado. Thankfully, they 
barely made it to the basement.
    But I have seen firsthand that devastation. And I was 
shocked after the tornado to learn that they--all of the 
housing was on slabs. There was no storm shelters in the 
community. All the training sites had no storm shelters, and 
that is the case in other installations I have come to find 
out.
    But I understand that you all are re-looking at that and 
trying to be proactive, and we can learn from this. What steps 
are taken now with storm shelter building after the tornado?
    Secretary Hammack. That is something we are taking a look 
at. We are taking a look overall at climate change impacts, 
whether there might be increased risk of storm or increased 
risk of earthquake or other mitigation strategies we need to 
implement, but certainly tornado shelters are one of those, and 
I think it is certainly made us all aware of the need for it.
    We do have great training programs on the base, and that is 
one of the things that helped out in that situation, no loss of 
life, but we are evaluating if we need to take some other steps 
there to ensure that we are more protected for the future.
    Mrs. Hartzler. Yes, I would just like to advocate that, and 
I don't think tornadoes are because of climate change in the 
Midwest. We have had them forever. But, anyway, I think that is 
just common sense there.
    But I did want to just ask all of the panel about BRAC. I 
know you are just wrapping up the 2005 BRACs. And do you 
anticipate--have you heard any move afoot to have any more 
BRACs in the future?
    Dr. Robyn. We have not asked for authorization for another 
BRAC. I think we are focused very single-mindedly on trying to 
get through the current one and meet our current deadlines.
    Mrs. Hartzler. Very good. Okay. Everybody okay with that?
    Just in the final question, regarding the 2005 BRAC, the 
situation there, I know there are 30 BRAC recommendations yet 
to be completed within 3 months of the completion date, and you 
all are considering six projects at high risk of being able to 
complete that. So I just wondered, what steps is the Department 
taking and what cost to complete all these recommendations by 
September of this year?
    Dr. Robyn. Katherine just reviewed some of the key ones. We 
are focusing on trying to meet the deadline in every case. We 
are determined to satisfy our legal obligation, but we are 
certainly not going to put patient safety at risk.
    So, for example, one of the ones we are watching closely is 
the move from Walter Reed to Bethesda, and we absolutely will 
not--we think that we are on schedule on that one, but should 
something go wrong--we do have only a small margin--we will 
absolutely not do anything to jeopardize patient safety.
    And as a matter of fact, under the law, we can't do that. 
We have to certify that Bethesda has the capability to receive 
the soldiers from Walter Reed before we can move them.
    Mrs. Hartzler. Yes, that is good to know. I mean, wounded 
warriors obviously are a high priority for all of us, and make 
sure they have the utmost care.
    And being new--I wasn't here in 2005--is there a penalty? I 
know there is a goal, September 2011, but what happens if you 
aren't able to----
    Dr. Robyn. It is a legal obligation. We are not concerned 
about a fine, but it is a legal obligation, and the Department 
has never missed a BRAC deadline through five rounds.
    I will say that this is the biggest one we have had, 222 
actions, but I think, more important, there was a conscious 
decision by the Department around 2006 to move the 
implementation to the right for budget reasons. So we are 
implementing this BRAC round systematically later in the 6-year 
implementation phase or implementation period than we have the 
earlier BRAC rounds, and so that is why we are coming so close 
to the deadline on a number of these.
    Mrs. Hartzler. All right. Thank you very much.
    Thank you, Mr. Chairman.
    Mr. Forbes. Thank you.
    Mr. Courtney.
    Mr. Courtney. Thank you, Mr. Chairman.
    And thank you to the witnesses for your service and 
testimony today. It is nice to see two graduates of the 
University of Hartford graduate programs doing so well and 
serving our country.
    I actually want to follow up with Congresswoman Hartzler's 
question, because this is not just sort of an academic question 
that she asked. There was a speech given in Boston by Senator 
Kerry, who was telling the audience that New England has to 
start getting ready for a BRAC round in 2015 or a BRAC process 
in 2015.
    You know, Under Secretary Robyn, you said again that there 
was nothing that is in the works right now, there is no 
request. I actually would appreciate it if the other witnesses 
could just confirm, as well as--again, Secretary Mabus was very 
strong before the committee a couple of weeks ago, but, again, 
I just would for the record ask that all of you just indicate 
whether there is anything happening.
    Secretary Hammack. There is no Army request. As Dr. Robyn 
said, we are focused on completing the round that we have right 
now and would sort of like to take a deep breath after we 
complete it.
    Secretary Pfannenstiel. And, Congressman, we have no 
intention--the Navy has no intention of seeking another BRAC.
    Secretary Yonkers. Congressman, the same thing is true for 
the Air Force. We are focusing on what it is that we need to 
complete right now, but I will also say that we still have 
excess infrastructure. So it would be a preferable--I mean, not 
preferable. It would be of use to us, I think, if we looked 
down that road farther, a reduction through another Base 
Realignment and Closure.
    Mr. Forbes. Would the gentleman yield?
    Mr. Courtney. Yes.
    Mr. Forbes. Let me suggest you not look too far to this 
committee, because I don't think we would be very receptive to 
another round of BRAC, and I think that is what Mrs. Hartzler 
and Mr. Courtney are trying to convey.
    And I yield back to the gentleman.
    Mr. Courtney. Thank you, Mr. Chairman.
    I mean, again, we--again, I have only gotten some sort of 
updates in terms of the net savings through this process. And, 
frankly, I think, you know, a lot of us are going to be looking 
at that very closely.
    I mean, in theory, there is probably always excess 
capacity, but the question is really whether this process is 
generating much in terms of real savings down the road.
    And why don't we just set that subject aside, because I 
actually have another question for you, Mr. Yonkers, which is 
that your budget that was submitted for 2012 for Air National 
Guard has a 40-percent reduction for facilities for Air 
National Guard. We, again, have a new mission in Connecticut 
for the C-17s [Boeing Globemaster III military transport 
aircraft], which is going to require some new facilities. The 
FYDP at this point is looking at 2015 for those facilities. And 
they are expecting to get those planes in 2013.
    So I can tell from the look on your face I may be hitting 
you with something a little too unexpected, and if you want to 
answer for the record. But, frankly, there is some concern 
about just where your budget is, in terms of the requirements 
for the C-17 missions, not just in Connecticut, but I believe 
it is five other states that are slated to get that project 
from the Air National Guard.
    Secretary Yonkers. Well, sir, I am confused, because our 
budget for the Air Guard this year is actually pretty robust. 
They are actually getting about 14 percent of the total 
military construction budget, which is about $1.4 billion. I am 
not aware of any detriment or any issues with regards to the C-
17 in particular----
    Mr. Courtney. C-27 [Alenia Spartan military transport 
aircraft].
    Secretary Yonkers. C-27?
    Mr. Courtney. The cargo--yes, the air cargo.
    Secretary Yonkers. Ah, okay. Yes, I would like to take it 
for the record.
    [The information referred to can be found in the Appendix 
on page 118.]
    Mr. Courtney. Okay, that is fine. But there is, obviously, 
some concern about the way the numbers--and, again, if I am 
wrong, that is even better. But if you could help us with that, 
that would be much appreciated.
    Secretary Yonkers. You bet.
    Mr. Courtney. And, again, I just would--in terms of some of 
the prior questions about energy efficiencies, we just cut the 
ribbon on a new Submarine Learning Center in Groton recently, 
which had geothermal as part of the installation, which 
actually everybody was just so excited about it.
    But, again, Secretary Mabus testified before committee, 
again, a couple weeks ago about every $10 per barrel is a $300 
million price tab for the Navy. I mean, obviously, no one wants 
to spend money on that if we don't have to, so those efforts I 
think are for the taxpayer, you know, setting aside any 
environmental reasons. So, you know, I just wanted to at least 
go on the record saying that we are seeing real tangible 
results with your efforts, so congratulations.
    And I would yield back, Mr. Chairman.
    Mr. Forbes. Thank you. We are going to have a series of 
votes. I don't know how our panelists are on time, but Mrs. 
Bordallo has asked to come back because she has a number of 
questions. Some of our Members may. Would that be too great--we 
apologize for that inconvenience. And, unfortunately, it could 
be as much as 50 minutes. So I just want to--Mr. Schilling, we 
are going to yield to you for 5 minutes, and then we are going 
to recess--and we will come back for any Members that want to 
ask questions after that.
    Mr. Schilling.
    Mr. Schilling. Thank you, Chairman. And I won't need my 
full 5 minutes, because my colleagues here have already asked 
the questions on BRAC'ing. I just wanted to delve in a little 
bit more onto basically the ``Made in America'' and how we buy 
product and how we do the pricing.
    One of the things that was brought to my attention--and, 
actually, I am from the district that--we represent the Rock 
Island Arsenal, so when we hear that we have no plans for 
BRAC'ing right now, that is music to our ears.
    But I had a gentleman that came to me, and he makes tools 
for a living. He has a firm in Milan, Illinois. And he 
indicated to me that we had the ``Made in USA,'' and basically 
the toolbox was made in America, but everything inside of it 
was not.
    And, you know, I am one of those people where I buy 
everything I can made in America. And, you know, I guess, you 
know, can you kind of give me an idea of how that works? I am 
pretty new to this, also, and any help you can give me would be 
appreciated.
    Dr. Robyn. Well, I don't know that I can give you a 
definitive answer, but let me say, we have gained an enormous 
amount as a country from the international trading system. We 
had done very well in selling our goods overseas, and that 
requires us in turn to buy goods from other countries. And 
consumers benefit from that, as well. We have trade laws by 
which we are bound, which protect us, but require us to buy--to 
not discriminate in favor of U.S. products.
    My understanding is that, in the case of the solar panels, 
that at least with respect to China, which is where many of 
them are coming from--and maybe wind turbines, as well--that 
they have not signed the international agreement under which we 
said we would buy products from that country. So even trade 
sticklers would say that there is a--that legally under 
international trade law we are justified in buying at least 
non-Chinese products.
    Mr. Schilling. Okay. That is a good enough answer.
    And then lastly I just wanted to thank you, because I know 
you are all sincerely dedicated to the cause, and I just want 
to thank you for your service, also.
    So with that, I yield back.
    Mr. Forbes. Could I just follow up real quickly on what Mr. 
Schilling said? Would it be possible for you to submit for the 
record--we don't expect you to have it--an explanation or 
perhaps send somebody back to his office to brief him on that 
policy? And the reason is because we understand with a lot of 
our agencies, but with DOD, one of the things we are concerned 
about, if we get in a conflict, we want to make sure that some 
other country doesn't cut off the supply.
    And I think this is what Mr. Schilling is concerned about. 
So if you need to submit it for the record or contact his 
office and just have him briefed on that.
    [The information referred to can be found in the Appendix 
on page 118.]
    Mr. Forbes. Chris, did you have a quick question?
    Mr. Gibson. Yes, Mr. Chairman, I am just going to submit 
for the record, because I am not going to be able to come 
back----
    Mr. Forbes. Take 60 seconds, and then we are going to get 
Mr. Scott.
    Mr. Gibson. Yes, thanks, Mr. Chairman. Apologize for not 
being here earlier, so I will look forward to reading the 
transcripts on energy efficiencies, and particularly interested 
in for modular nuclear reactors, where the Department is going 
forward, hearing your views on that.
    And then the question for the record: I am concerned about 
the deaths at Fort Bragg. I know that this is partially in your 
lane, and it cuts across others, but with regard to military 
construction and environment, 12 deaths there, 3 in one home. 
And we certainly have great personal experience with Picerne, 
very responsible I found them in my time that our family lived 
at Fort Bragg, but I am especially concerned about these deaths 
and would like to be kept apprised of what the investigations 
are going forward.
    Thank you, Mr. Chairman. I yield back.
    [The information referred to can be found in the Appendix 
on page 118.]
    Mr. Forbes. Thank you.
    Mr. Scott.
    Mr. Scott. Thank you, Mr. Chairman.
    Mr. Yonkers, I will not be able to come back after the 
series of votes, but I represent Robins Air Force Base. And I 
would appreciate it if we could schedule some time for you to 
come by. I would like to discuss the 30 percent reduction that 
is, as I understand it, across the board for the Air Force in 
energy consumption with the September 30th of 2015, I believe 
it is, deadline. And I would like to--I would just like more 
details on that and how that number was derived and how we 
intend to get there.
    Certainly, manufacturing installations are very different 
than other installations, maybe. I would just appreciate your 
time, if we could schedule that, and Jim Dolbow of my staff is 
in the back.
    Secretary Yonkers. Congressman Scott, we would be delighted 
to come by and talk to you some more about that.
    Mr. Scott. Thank you, sir.
    Mr. Forbes. Steve, do you have any questions? Do you want 
to come back or are you okay? Okay.
    Then we are going to have some of our Members submit 
questions for the record. I am told Ms. Bordallo is still in a 
markup and will be a while getting back. I have got a number of 
questions I am just going to submit to you for the record. 
Please answer them, you know, because they are things we need 
for our markup when we get them.
    So we will submit those to you. And if you would just be 
kind enough to submit those for the record, then we don't have 
to hold you and bring you back. And I know that will be good 
news to you. Thank you guys so much for taking your time and 
being with us.
    And with that, if no one has any follow-up questions, we 
are adjourned.
    [Whereupon, at 4:45 p.m., the subcommittee was adjourned.]
      
=======================================================================

                            A P P E N D I X

                             April 13, 2011

=======================================================================

              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             April 13, 2011

=======================================================================

                   Statement of Hon. J. Randy Forbes

                  Chairman, Subcommittee on Readiness

                               Hearing on

         Fiscal Year 2012 National Defense Authorization Budget

            Request for Military Construction, Base Closure,

           Environment, Facilities Operation and Maintenance

                             April 13, 2011

    I want to welcome all our Members and our distinguished 
panel of experts to today's hearing that will focus on how our 
military construction program is aligned with our Nation's 
priorities. Fundamentally, our Nation is at war with an 
aggressive adversary. Our forces have been successful in 
engaging this war on the doorsteps of foreign nations and I am 
grateful that the underpinnings of our security have kept our 
citizens safe and ensured our free-market economy thrives.
    However, we have seen changes in this dynamic recently. 
With the crisis in several Arab nations, with the rise of a 
rapidly developing China, and even with the sustaining of 
combat operations in Iraq and Afghanistan, I am not confident 
that the Department of Defense has the necessary infrastructure 
and strategic partnerships that are necessary to confront these 
diverse and dynamic challenges.
    I believe that our force structure needs to be better 
aligned with emerging threats. A good example of this 
realignment effort is located in my Ranking Member's home of 
Guam. I believe that this location will serve to enhance our 
forces in Eastern Asia against those who believe that we are 
not committed to freedom and prosperity in this strategic 
region. In addition to Guam, I believe that it is critical that 
we expand our basing structure in the Western Pacific to 
encompass nontraditional partners that are aligned with our 
strategic interests. On the other hand, an example of a 
strategic ``misalignment'' is at Naval Station Mayport where 
the Navy has proposed to place a redundant capability that will 
cost significant funds to support a second carrier homeport on 
the East Coast. Our strategic investments should be both wise 
and cost-effective. Unfortunately, the Navy's support of a 
second homeport in Mayport is neither and reverses a series of 
decisions by previous Navy leadership to limit strategic 
homeport concepts.
    As to other issues included in the president's budget 
request, I am also concerned about financial parameters that 
drive poor decisionmaking. For example, I was surprised to note 
that the Navy decided to enter into an energy-efficiency 
contract where the financial payback was an astounding 447 
years. Even after this was pointed out by the Inspector 
General, the Department decided to continue with this project. 
I was also surprised that the entire Department of Defense uses 
construction costs indices that are 25 to 40 percent more than 
similar commercially built facilities. My friends, with savings 
of only 25 percent in the military construction program, which 
could represent an annual savings of almost $4 billion, we 
could build significant capabilities and really provide a 
result that would correct years of neglect and allow us to make 
prudent strategic investments in diverse areas around the 
world. Good enough is not good enough for the fine men and 
women in uniform.
    On a final note, we are in the final year of implementing 
the BRAC program and there are many recommendations that 
contain significant risk in completing by the statutory 
deadline of September 2011. I want to be very clear that any 
risk to the mission of the United States in this time of war 
needs to be properly limited to ensure the success of our 
efforts. I will not jeopardize patient care for our wounded 
warriors if their care will be impacted by a BRAC move. I look 
forward to our witnesses' discussing the risk of the BRAC moves 
to determine if additional time is necessary to properly 
complete the remaining BRAC recommendations.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

=======================================================================

              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                             April 13, 2011

=======================================================================


RESPONSE TO QUESTION SUBMITTED BY MS. BORDALLO ON BEHALF OF CONGRESSMAN 
                                  FARR

    Dr. Robyn. The Innovative Readiness Training (IRT) program is 
grounded in 10 USC 2012. Our military personnel and units volunteer to 
participate in training events in the civilian communities throughout 
the US and territories. While an underserved community will benefit 
from the military's presence in the community, the focus of the program 
is on pre-deployment and post-deployment readiness training.
    The Office of the Assistant Secretary of Defense for Reserve 
Affairs (ASD(RA)) has been in contact with Congressman Farr's office to 
discuss the San Clemente Dam, and ASD(RA) remains available to answer 
further questions. [See page 15.]
                                 ______
                                 
            RESPONSES TO QUESTIONS SUBMITTED BY MR. LOBIONDO
    Dr. Robyn. The specific products on the military construction 
project being discussed were manufactured in New Jersey. However, 
existing law specifically authorizes the procurement of photovoltaic 
devices that are manufactured in other countries. Therefore, the 
Department of Defense does procure these devices from other countries 
when doing so is determined to be the best value to the Government, 
which may include consideration of the lowest price, technically 
acceptable offer. [See page 17.]

    Secretary Hammack. The Department of the Army includes the Buy 
American Act provision in its contracts which requires U.S. made Photo 
Voltaic (PV) devices and solar cells.
    In addition, the FY2011 National Defense Authorization Act further 
requires that contracts awarded by the Department of Defense (DoD) 
include a provision requiring PV devices provided under the contract to 
comply with the Buy American Act to the extent that such contracts 
result in ownership of PV devices by the Department of Defense.
    The Army, including Active, Reserve and National Guard components, 
has many projects that use U.S. made PV and solar cells. The table 
below presents a sample of current and proposed projects during the 
period FY 2009-FY 2012. [See page 17.]



----------------------------------------------------------------------------------------------------------------
                    LOCATION                                              PROJECT TITLE
----------------------------------------------------------------------------------------------------------------
Sea Girt, NJ                                     Photovoltaic Electric System, 400 kilowats (kW)
----------------------------------------------------------------------------------------------------------------
Pohakuloa Training Area, HI                      Solar Water Heaters & Solar Daylighting
----------------------------------------------------------------------------------------------------------------
Fort Dix, NJ                                     Photovoltaic Roof System, 500kW
----------------------------------------------------------------------------------------------------------------
Bethany Beach, DE                                Solar PV System, 378kW
----------------------------------------------------------------------------------------------------------------
Presidio of Monterey, CA                         Solar PV System, 378kW
----------------------------------------------------------------------------------------------------------------
Vicenza, Italy                                   Photovoltaic Installation, 750kW
----------------------------------------------------------------------------------------------------------------
Fort Hunter Liggett, CA                          Solar Micro Grid, 1 megawatt (MW) (2 systems)
----------------------------------------------------------------------------------------------------------------
Lawrenceville RC, NJ                             Solar PV System, 295kW
----------------------------------------------------------------------------------------------------------------
Kwajalein Atoll, Marshall Islands                Solar PV System, 468kW
----------------------------------------------------------------------------------------------------------------
Sacramento, CA                                   Solar Electric System, 126kW
----------------------------------------------------------------------------------------------------------------
Wailuku, HI                                      Solar Electric System, 100kW
----------------------------------------------------------------------------------------------------------------


    Secretary Pfannenstiel. It is likely that the Navy has purchased 
foreign manufactured solar panels in the past. Any foreign manufactured 
solar panels purchased have been compliant with the Buy American Act 
(BAA), which permits the purchase of construction materials from 
certain countries that are signatories of the trade agreements 
specified in BAA. Designated foreign countries we are allowed to 
purchase from and remain compliant with the BAA include: a World Trade 
Organization country, a Free Trade Agreement country, a least developed 
country, or a Caribbean Basin country, as defined in the BAA language. 
BAA requirements also allow the Navy to purchase foreign construction 
material if the cost of the domestic construction material exceeds the 
cost of the foreign material by more than 6 percent. [See page 17.]

    Secretary Yonkers. Section 846 of the National Defense 
Authorization Act for Fiscal Year 2011 (FY11 NDAA) requires DoD to 
comply with the Buy American Act in specified solar energy contracts 
requiring photovoltaic devices. Since the FY11 NDAA was passed, the Air 
Force has not purchased any solar panels subject to this requirement.
    Third party financing, such as Power Purchase Agreements, enable 
the Air Force to promote the development of renewable energy projects 
on its installations. These projects, in turn, increase the available 
amounts of renewable energy and improve the Air Force's energy security 
posture. Third party financing that does not result in full ownership 
by the Air Force is not covered under Section 846. The Air Force does 
not track where panels for such projects are manufactured. [See page 
17.]
                                 ______
                                 
             RESPONSE TO QUESTION SUBMITTED BY MR. COURTNEY
    Secretary Yonkers. The Air Force projects a manufacturing/delivery 
plan for C-27 aircraft that has begun to provide aircraft at some 
locations, and will continue through fiscal year (FY) 2015. In the time 
between aircraft delivery and bed down project construction, each Air 
National Guard unit will prepare
    C-27 aircraft for combat deployments and aircrew training using 
workarounds involving existing capabilities and facilities.
    In determining which MILCON projects get funded in a given FY, the 
Air Force uses an Integrated Priority List (IPL) in which a scoring 
model is applied to all Active, Guard and Reserve projects. Projects 
compete based on mission requirements, and those projects that have 
temporary workarounds tend to score lower (and are sequenced for 
construction later) than those where no workarounds are available. [See 
page 21.]
                                 ______
                                 
            RESPONSE TO QUESTION SUBMITTED BY MR. SCHILLING
    Dr. Robyn. While my organization does not make actual buys, the 
Department policies comply with Sec 846(a) of the 2011 National Defense 
Authorization Act (NDAA), H.R. 6523, (P.L. 111-383), which requires the 
Department to ensure that photovoltaic devices provided under contract 
comply with the Buy American Act (41 U.S.C. 10a et seq.), subject to 
the exceptions provided in the Trade Agreements Act of 1979 (19 U.S.C. 
2501 et seq.). The restrictions of the Buy American Act (BAA) currently 
cover the procurement of Photovoltaic Devices, federal supply 
classification 6117, as implemented in Federal Acquisition Regulation 
(FAR) Part 25 and Defense Federal Acquisition Regulation Supplement 
(DFARS) Part 225. With limited exceptions, the procurement of 
Photovoltaic Devices is required to be a domestic end product when used 
in the United States. [See page 23.]
                                 ______
                                 
              RESPONSE TO QUESTION SUBMITTED BY MR. GIBSON
    Dr. Robyn. The infant deaths at Fort Bragg have been fully 
investigated. The Office of Compliance and Field Operations of the U.S. 
Consumer Products Safety Commission, on February 7, 2011 reported that 
the indoor environmental and building systems investigation did not 
identify any issues or contaminants that would potentially pose a 
health concern to residents. The Army's Criminal Investigation 
Command's broader investigation into the possible causes of these 
deaths has been concluded with a press statement that ``after extensive 
testing and investigating, the review did not discover any evidence of 
information that points to criminality associated with the deaths, or 
any identifiable common environmental link.'' The Medical Command 
investigation is ongoing, to date they have not discovered any evidence 
of any potential exposures that could cause or contribute to these 
deaths. Further findings indicate a lower infant mortality rate in Fort 
Bragg housing residents compared to the rates of the United States, the 
state of North Carolina, and the counties surrounding Fort Bragg. [See 
page 23.]
?

      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                             April 13, 2011

=======================================================================

      
                   QUESTIONS SUBMITTED BY MR. FORBES

    Mr. Forbes. How is the DOD organized to review renewable energy 
applications in a timely manner and protect DOD equities from 
encroachment?
    Dr. Robyn. The Department created the DoD Siting Clearinghouse to 
comply with Section 358 of the National Defense Authorization Act for 
Fiscal Year 2011, and is publishing a rule for inclusion in the Code of 
Federal Regulations to provide a process to review applications 
received from the Federal Aviation Administration (FAA) under its 49 
U.S.C. 44718 process.
    When renewable energy applications are received from the FAA, the 
Clearinghouse tasks subject matter experts from the DoD Components to 
review the applications and ensure that DoD equities in training and 
readiness, test and evaluation, operations, and homeland defense are 
protected. If DoD equities are protected, the Clearinghouse recommends 
that the Deputy Under Secretary of Defense (Installations & 
Environment) provide a ``no objection'' to the FAA. However, if the 
project has a potential to adversely impact the Department, the 
Clearinghouse tasks a team, comprised of the DoD Components that are 
potentially affected, to conduct negotiations with the project 
proponent to mitigate the adverse impacts. If the negotiations are 
successful, the DoD can then provide a ``no objection'' comment to the 
FAA. If the mitigation negotiations are not successful, or the project 
proponent refuses to discuss mitigation, the Clearinghouse can 
recommend that the Deputy Secretary of Defense request a determination 
of hazard from the FAA. If the Deputy Secretary determines the project 
will present ``an unacceptable risk to the national security of the 
United States,'' the Clearinghouse will transmit the objection to the 
FAA.
    Mr. Forbes. The President's vision for a secure energy future 
highlights the Interior Department's commitment to issue permits for a 
total of 10,000 megawatts of renewable power generated from new 
projects on public lands and in offshore waters by the end of 2012.

    <bullet>  How is the DOD organized to review renewable energy 
applications in a timely manner and protect DOD equities from 
encroachment?

    <bullet>  How is the DOD prepared to mitigate the impact to 
military ranges, testing, and training activities?
    Dr. Robyn. The Department created the DoD Siting Clearinghouse to 
ensure that all renewable energy applications are reviewed in a timely 
matter, while protecting DoD equities in training and readiness, test 
and evaluation, operations, and homeland defense. When renewable energy 
applications are received from the Bureau of Land Management (BLM), the 
Clearinghouse tasks subject matter experts from the DoD Components, 
such as the Services and the Joint Staff, to review the applications 
and ensure that DoD equities are protected from encroachment. The 
Clearinghouse then presents the collective recommendations to its Board 
of Directors, which is comprised of the Deputy Under Secretary of 
Defense for Installations and Environment (co-chair); the Deputy Under 
Secretary of Defense for Readiness (co-chair); the Principal Deputy 
Director of Operational Test and Evaluation (co-chair); the Assistant 
Secretary of Defense for Homeland Defense; the Assistant Secretary of 
the Army for Installations, Energy, and Environment; the Assistant 
Secretary of the Navy for Energy, Installations, and Environment; the 
Assistant Secretary of the Air Force for Installations, Environment, 
and Logistics; and the Joint Staff's Vice Director of Strategy, Plans, 
and Policy (J-5). After their review of a renewable energy project 
application, the Directors either approve a statement of ``no 
objection'' to the BLM, task a team comprised of the DoD Components 
most affected by the project to conduct negotiations for mitigation 
with the project proponent, or recommend to BLM that the project be 
disapproved.
    In cases where mitigation is possible (the vast majority), the 
negotiation team works in close coordination with the cognizant BLM 
office and the project proponent to examine a variety of mitigation 
options. For example, the Clearinghouse, Service representatives, and 
BLM representatives worked for more than a year to determine suitable 
routes for a transmission line close to White Sands Missile Range. 
Additionally, the Department is a cooperating agency in BLM's Solar 
Programmatic Environmental Impact Statement, and will use forthcoming 
Air Force and Navy studies to determine acceptable amounts of 
electromagnetic interference from solar and wind installations near the 
Nevada Test and Training Range, Edwards Air Force Base, and Naval Air 
Weapons Station China Lake. Only in cases where all mitigation options 
are exhausted, or agreement on mitigation cannot be reached, will DoD 
recommend that BLM disapprove the project.
    Regarding offshore renewable energy projects, the Clearinghouse co-
chairs and the Services have supported the Department of the Interior's 
Atlantic Offshore Wind Policy Group and the various state task forces 
led by the Bureau of Ocean Energy Management, Regulation, and 
Enforcement (BOEMRE).
    Mr. Forbes. The Department of Defense is expected to meet several 
installation energy-related goals and mandates. This includes reducing 
facility intensity by 30% by 2015 and 37.5% by 2020. Another goal 
requires the DOD to consume 7.5% of electric energy from renewable 
resources by 2013. An additional goal requires DOD to produce or 
procure 25% of facilities energy from renewable sources by 2025.

    <bullet>  Do you believe DOD will meet all of these installation 
energy goals and mandates?

    <bullet>  What do you see as your biggest challenge or impediment 
to meeting the goals and mandates, particularly while ensuring 
necessary oversight and appropriate stewardship of taxpayer dollars 
through a demonstrated return on investment?
    Dr. Robyn. [The information was not available at the time of 
printing.]
    Mr. Forbes. The President recently provided his vision for a secure 
energy future, one tenet of which is the expansion of ``clean energy'' 
in the United States.

    <bullet>  How is the Department of Defense expected to contribute 
to the President's goal?

    <bullet>  What is the plan to expand the use of clean energy on its 
installations?
    Dr. Robyn. [The information was not available at the time of 
printing.]
    Mr. Forbes. DOD construction costs include many requirements that 
drive the overall costs to include federal contracting requirements 
(Davis-Bacon wages, federal subcontracting and small business goals, 
bonding requirements (Miller Act)), federal design requirements, energy 
efficiency objectives, and a robust quality assurance capacity to 
manage construction contracts. These costs generally add 25-40% in 
construction costs over private-sector construction requirements.

    <bullet>  What steps is the Department taking to mitigate the 
overall costs of construction and reduce overall barriers to entry in 
DOD construction market?

    <bullet>  What can Congress do to assist in reducing statutory 
burdens and reduce overall construction costs?
    Dr. Robyn. The Department has taken several measures to lower 
construction costs and mitigate the additional costs imposed by federal 
contracting requirements and unique DoD requirements and constraints, 
to include: 1) adopting industry design and construction standards and 
criteria in lieu of military standards; 2) allowing use of all 
commercial construction types (Types I through V), including wood-frame 
construction; 3) standardizing facility designs to reduce total design 
costs; and 4) packaging similar facilities into a single construction 
project, where possible, to achieve economies of scale.
    The Department continually strives to reduce barriers to entry in 
the DoD construction market. In addition to mitigating costs, items 1) 
and 2) above have enabled a larger number of construction firms to 
compete for military construction projects because familiarity with 
unique defense design and construction standards is not required. 
Likewise, the Department's move to electronic distribution of bid 
documents has greatly increased the accessibility of the military 
construction program to the construction market and has significantly 
lowered the administrative and cost barriers to compete for a project 
during the last decade.

    Mr. Forbes. The Army has decided to reduce the number of Brigade 
Combat Teams in Europe from four to three.

    <bullet>  What capabilities would be lost if BCT forces were 
reduced in Europe?

    <bullet>  How does the Department balance this capability 
degradation in Europe with the cost savings associated with stationing 
forces in the United States?
    Secretary Hammack. The mix of capabilities offered by the three 
distinct types of BCTs remaining in Europe (Heavy, Stryker, and 
Airborne) enables EUCOM to meet a wide array of engagement, building 
partner capacity, and interoperability objectives while supporting the 
full range of military operations needed for plausible European 
contingencies. This BCT mix ensures we maintain a flexible and easily 
deployable forward-based defense posture that optimizes our ability to 
meet NATO commitments and training/engagement objectives and to satisfy 
security objectives.
    We believe that retaining three BCTs in Europe strikes the best 
balance between a stringent fiscal environment and the need to maintain 
a flexible and easily deployable ground force to meet commitments with 
Allies and partners.
    Mr. Forbes. The Army is responsible for the implementation of 
several complex BRAC recommendations that will likely not be completed 
by the statutory BRAC deadline of September 2011.

    <bullet>  Considering the magnitude of movements occurring this 
summer to implement the BRAC decisions, how will the Department be able 
to retain mission capabilities and complete the BRAC decisions by the 
statutory deadline?

    <bullet>  What is the risk in completing the BRAC decisions by the 
statutory deadline?

    <bullet>  Will Wounded Warrior care in the National Capital Region 
at the conclusion of BRAC be on a par with the standard of care that is 
provided today?
    Secretary Hammack. Throughout the BRAC process, the Army has been 
managing the transition to new facilities closely and specifically 
asking commanders in the field for their assessment of impact on 
mission capability. Based on the assessments received, the department 
believes that it will meet the BRAC deadline and sustain mission 
capabilities. In terms of risk in meeting the deadline, we are 
constantly in contact with the field to monitor and if necessary 
mitigate risk. For example, I receive weekly reports from the commander 
of Walter Reed that provides their assessment of the move to Bethesda 
and their ability to meet the mission requirement.
    Wounded Warrior care in the National Capital Region at the 
conclusion of BRAC will be consistent with today's standard of care. 
The new facilities will provide an optimal healing environment and 
support structure for transitioning Wounded Ill and Injured (WII) and 
their Family members while better aligning healthcare delivery with the 
population centers of the National Capital Region (NCR) beneficiaries.
    Mr. Forbes. The Army is taking very aggressive steps to establish 
net-zero pilot programs across installations. This is a very innovative 
approach for net-zero water, net-zero energy, and net-zero waste.

    <bullet>  Has the Army conducted a cost benefit analysis to 
determine the return on investment for achieving these goals?

    <bullet>  If so, what is the result, or is the Army prepared to 
adjust the goals to ensure it makes appropriate investments with a 
demonstrated payback?

    <bullet>  How will this help the Army become less reliant on the 
commercial grid?
    Secretary Hammack. The Army's Net Zero Installation Initiative is a 
strategy that strives to bring the overall consumption of resources on 
installations down to an effective rate of zero. The program 
establishes a framework of reduction, re-purposing, recycling and 
composting, energy recovery, and disposal to guide them towards 
achieving net zero in an environmentally responsible, cost-effective 
and efficient manner. While the Army has not conducted a cost benefit 
analysis to determine return on investment on the Net Zero Installation 
approach, we know that reducing energy and water use reduces cost.
    The Army does align with the U.S. Department of Energy concerning 
life-cycle cost methodology and criteria established by the Federal 
Energy Management Program (FEMP) (NIST Handbook 135, 1995 Edition), as 
it relates to specific projects. Net zero projects will be evaluated on 
a life cycle cost basis to identify the best investments and return on 
investment.
    As with our weapon system investments to ensure national security, 
we are moving ahead with our aggressive steps to ensure the Army's 
future access to resources. Net zero initiatives will allow:

    <bullet>  Increased reliability of installation energy and water in 
support of mission requirements.

    <bullet>  Reduction in greenhouse gases and vulnerability to 
external supply disruption.

    <bullet>  Lower installation and facilities utilities costs (in 
light of rising fuel prices in commercial and foreign markets).

    Cost-benefit analyses will include more than the monetary aspects 
to allow for best decisions and these aspects noted above are heavily 
weighted in favor of net zero investments.
    The Net Zero Installation program provides the framework to 
decrease the Army's reliance on the commercial grid. As part of the 
Army's overall effort to conserve precious resources, Net Zero 
installations will consume only as much energy or water they produce 
and eliminate solid waste to landfills.

    Mr. Forbes. The Government of Japan has not yet established the 
final laydown of the Marine Corps aviation realignment on Okinawa. In 
its FY12 budget request, the Department of Defense request of $155 
million is imbalanced compared to the Government of Japan funds request 
of $472 million that is pending consideration of the Japanese Diet.

    <bullet>  Why did the President's budget request not match the 
funding amount requested by the Government of Japan?

    <bullet>  How does the lack of tangible progress regarding the 
configuration of the Futenma Replacement Facility on Okinawa impact the 
Department in its decision to request funds to support the Marine Corps 
realignment in Guam?

    <bullet>  How has the Government of Japan responded to the budget 
request with regard to the FY12 level of funding for the Marine Corps 
realignment in Guam?

    <bullet>  How will the most recent natural disasters in Japan 
impact Japan's ability to fiscally support this major realignment?
    Secretary Pfannenstiel. The funding request for FY-12 is the result 
of careful consideration of many planning and execution factors, 
including the Futenma Replacement Facility. The Department considered 
the concerns noted by Congress in the FY-11 National Defense 
Authorization Act Joint Explanatory Statement and is committed to 
executing the realignment in a deliberate manner. Funding decisions 
were made to take the time to work towards resolution of these issues. 
Additionally, as discussed in the Record of Decision for the Guam and 
Commonwealth of the Northern Mariana Islands Military Buildup, the 
Department will use Adaptive Program Management to adjust the pace and 
sequencing of construction projects so that the buildup does not exceed 
Guam's infrastructure capacities. Efforts are underway to increase the 
capacity of Guam's commercial port, using $50 million in DOD funding 
and $54 million in USDA financing; improve roadways using Defense 
Access Road funding ($49M appropriated in FY10 and $67M authorized for 
appropriation in FY11); and address critical improvements to Guam's 
utilities systems by applying financing from the Government of Japan. 
As these upgrades come online, the pace of construction can be adjusted 
accordingly. Projects requested in FY-12 are those that are necessary 
at this time to support future vertical construction and also to 
support the introduction of off-island workers necessary to ramp-up 
construction over the next few years.
    In the wake of the earthquake, tsunami and nuclear disasters, the 
Government of Japan has reiterated and demonstrated that it remains 
committed to the relocation of Marines from Okinawa to Guam. We have 
communicated with the Government of Japan regarding the amount of our 
FY12 MILCON budget request and they understand our decision-making 
rationale based on the factors noted above. The Diet has approved the 
JFY-11 budget, which includes $167 million in direct cash contributions 
for facilities construction and design, and $415 million in utilities 
financing. At $167 million, the Government of Japan's direct cash 
contribution is comparable to DOD's $156 million military construction 
funding request. Of the $415 million in utilities financing, $273 
million of this utilities financing will be applied to critical 
upgrades to wastewater systems off-base, which will support the 
relocating Marines and Guam's population growth in the long-term and in 
time to support the requirements of the off-island construction 
workforce. The balance of the JFY-11 utilities financing will be used 
for improvements to the Navy's water system on base and will eventually 
be married up with the P-2048 Finegayan Water Utilities FY12 MILCON 
project request. Coupled with the efforts noted above, these 
improvements will allow for the construction program to ramp-up.
    Mr. Forbes. The United States and the Government of Japan concluded 
an agreement in 2006 that stipulated the movement of Marine Corps 
forces to Guam and provided a framework to share the $10.2 billion in 
costs associated with the Marine Corps movement. Since the 2006 
agreement, the Marine Corps has indicated that the overall cost 
estimate does not provide for the full spectrum of training to support 
their requirements.

    <bullet>  What is the overall cost to move Marine Corps forces to 
Guam?

    <bullet>  Does this cost estimate include the required training 
elements to support the Marine Corps?
    Secretary Pfannenstiel. The overall cost estimates are currently 
under review at the Office of the Secretary of Defense. While I cannot 
answer when the information will be validated by OSD, I can state that 
the cost estimate includes all required training elements to support 
the relocating Marines.
    Mr. Forbes. The fiscal year 2012 budget request includes a $15 
million military construction project for road improvements at Naval 
Station Mayport (FL) and $15 million in planning and design costs for 
future projects. While GAO believes that the Navy's costs are 
overstated, this request is the first of several military construction 
projects that the Navy anticipates will cost $564 million to provide 
the supporting infrastructure for a nuclear aircraft carrier. The Navy 
cites the strategic risk of locating all nuclear aircraft carriers on 
the East Coast at a single location as the principal reason to relocate 
an aircraft carrier to Mayport.

        1)   Has the Navy adopted a consistent strategic risk 
        assessment regarding the basing of ballistic missile 
        submarines, nuclear aircraft carriers, and other critical 
        assets in the United States? If not, why not?

        2)   If strategic dispersal is central to the Navy's decision, 
        why did the Navy abandon strategic dispersal in the Gulf of 
        Mexico in BRAC 2005 through the closure of Naval Station 
        Ingleside and Naval Station Pascagoula?

        3)   In the decision process, why did the Navy not evaluate 
        Norfolk, VA, against those qualities expected in Mayport, FL, 
        in the range of alternatives?
    Secretary Pfannenstiel. The one-time infrastructure cost associated 
with the creation of a second CVN homeport at Mayport, FL is $489M in 
Military Construction (MILCON) projects including Planning and Design. 
Specifically, in FY 2012 the Navy requested $15M for the Massey Avenue 
Corridor Improvement Project (P503) and $2M for Mayport Planning and 
Design efforts.
    1) Thorough, formal strategic risk assessments include 
vulnerability, threat and trend analyses and are routinely conducted 
and updated by Navy, Joint Staff, FBI, and Department of Homeland 
Security officials and others. These risk assessments inform Navy 
basing decisions. The Navy applies strategic risk assessments as a 
factor when evaluating basing options and alternatives across the 
force. Other factors include overall dispersal, strategic/operational 
impacts, balanced port loading, maintenance and logistics, existing 
infrastructure, sailor/family quality of life, environmental impacts 
and costs.
    2) Strategic dispersal of Navy ships is not a new concept, and is 
not unique to nuclear aircraft carriers. The Navy emphasized strategic 
dispersal in BRAC 2005; it was a key requirement in analysis conducted 
to support recommendations for closure and realignment as forwarded to 
the Secretary of Defense. As contained in the BRAC 2005 report, Navy 
established rules to guide the Department of the Navy (DON) analysis 
and infrastructure groups' scenario development. Among the DON rules 
used to bound recommendations were: ``(1) to ensure that the model did 
not result in unbalanced force levels on each coast, at least 40 
percent of the requirements had to be located on each coast; (2) one 
strategic nuclear submarine homeport per coast was required to ensure 
that this key infrastructure capability was maintained; and, (3) two 
ports on each coast capable of cold iron berthing a nuclear-powered 
carrier must be retained in order to allow for dispersal.'' Strategic 
dispersal was evaluated with respect to the closure of Naval Station 
Pascagoula, as contained in the Department of Defense Base Realignment 
and Closure Report of May 2005, within Volume IV (Department of the 
Navy Analyses and Recommendations). For example, report justification 
for closure of NS Pascagoula states, ``Sufficient capacity and Fleet 
dispersal is maintained with East Coast surface Fleet homeports of 
Naval Station Norfolk and Naval Station Mayport, FL.''
    3) The strategic dispersal of a nuclear aircraft carrier on the 
East Coast is not a competition between Norfolk and Mayport, the 
positive qualities of both ports combine to ensure prudent positioning 
and sustainment of critical national assets.
    Mr. Forbes. The Secretary of the Navy established energy goals that 
far exceed the requirements for the other military services.

    <bullet>  What is the impetus for these targets, and why do you 
believe this is critical to national security?
    Secretary Pfannenstiel. The Secretary of the Navy (SECNAV) has set 
forth five energy goals to reduce the Department of the Navy's (DON's) 
overall consumption of energy, decrease its reliance on petroleum, and 
significantly increase its use of alternative energy. Meeting these 
goals requires that the Navy and Marine Corps value energy as a 
critical resource across maritime, aviation, expeditionary, and shore 
missions.
    The impetus for these energy goals is to ensure DON's Energy 
Security and Energy Independence. Energy Security is sustained by 
utilizing sustainable sources that meet tactical, expeditionary, and 
shore operational requirements and force sustainment functions, and 
having the ability to protect and deliver sufficient energy to meet 
operational needs. Energy Independence is achieved when Naval forces 
rely on energy resources that are not subject to intentional or 
accidental supply disruptions. As a priority, energy independence 
increases operational effectiveness by making Naval forces more energy 
self-sufficient and less dependent on vulnerable energy production and 
supply lines.
    DON's Energy Program for Security and Independence will lead the 
Navy and Marine Corps efforts to improve operational effectiveness 
while increasing energy security and advancing energy independence. DON 
will achieve the SECNAV goals by adopting energy efficient acquisition 
practices, technologies, and operations.
    Mr. Forbes. The Navy has proposed to defer investments in 
facilities restoration and modernization.

        1)   Why did the Navy elect to take risk in the facility 
        accounts and delay critical sustainment, restoration and 
        modernization activities?

        2)   What is the long-term effect of a delay in funding this 
        facility maintenance account?
    Secretary Pfannenstiel. 1) To maximize our support for warfighting 
readiness and capability, the Navy reduced its facilities sustainment 
posture to 80 percent of the Department of Defense Facilities 
Sustainment Model.
    2) The Navy will attempt to mitigate the inherent risk to this 
strategy, the attendant operational impacts, and to ensure the safety 
of our Sailors and civilians by prioritizing projects that address 
facilities with the lowest quality rating as well as the facilties and 
building systems that have the most significant impact to our 
personnel. Less critical maintenance and repair actions will continue 
to be deferred.

    Mr. Forbes. The Air Force has proposed to defer investments again 
in facilities restoration and modernization.

    <bullet>  Why did the Air Force elect to take risk in the facility 
accounts and delay critical sustainment, restoration and modernization 
activities?

    <bullet>  What is the long-term effect of a delay in funding this 
facility maintenance account?
    Secretary Yonkers. Overall, in FY12, the Air Force increased 
investment in facilities O&M accounts (restoration & modernization, and 
demolition) and decreased investment in its facilities sustainment 
account. The net was $160M in growth from FY11. In response to the OSD-
directed initiative to reduce overhead, the AF instituted a number of 
O&M account efficiencies and reinvested resources into critical weapon 
systems programs. As a result the Air Force will achieve $1.6B in 
facility sustainment and operations efficiencies across the FYDP 
without mission impact. We shall ensure capabilities are not degraded 
by leveraging sustainable facility design, demolishing excess 
infrastructure, sourcing strategically, enforcing common standards, and 
employing sound asset management support practices. It is our view that 
the Air Force did not take risk in facilities or delay critical SRM 
activities.
    Mr. Forbes. The term ``energy security'' is defined by the QDR as 
having ``assured access to reliable supplies of energy and the ability 
to protect and deliver sufficient energy to meet operational needs.''

    <bullet>  How is the Air Force developing renewable energy projects 
on its installations that are compatible with this goal, and providing 
redundant power in the event of a failure of the public grid?
    Secretary Yonkers. The Air Force has a strategic rationale and 
operational imperative to decrease demand and diversify sources of 
supply to enhance energy security, including by implementing a 
portfolio of renewable and alternative energy projects, as energy 
availability and security impacts all Air Force missions, operations, 
and organizations.
    By taking a balanced approach between Air Force focused investments 
to reduce energy intensity and leveraging the renewable energy market 
through 3rd part investment to increase energy resiliency and 
redundancies, the Air Force is focused on diversifying its sources of 
energy to meet its operational needs and in turn enhance its energy 
security posture. The Air Force currently has 85 operational renewable 
energy projects on 43 bases, totaling 34 MW of renewable energy 
capacity. Additionally, there are projects lined up for FY11-13 that 
total more than 1,000 MW of operational energy, including large-scale 
solar projects at Luke Air Force Base in Arizona, and Edwards Air Force 
Base in California.
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MS. BORDALLO
    Ms. Bordallo. You mention in your testimony that contemporary urban 
planning techniques and modern energy technologies will be used as part 
of the development on Guam. Can you elaborate on what these 
contemporary urban planning techniques are and how they will be 
incorporated on Guam? Further, I am concerned that base planning really 
does not take into account local planning laws and master plans. As we 
move forward, does the Department have the authorities necessary to do 
a better job of planning new installations or in the expansion of 
current installations?
    Dr. Robyn. The Department currently has all the necessary 
authorities for planning to support the Marine relocation to Guam or 
any other expansion of a current installation. The plan for development 
on Guam includes sustainable planning techniques such as Leadership in 
Energy and Environmental Design (LEED) rated buildings, the nationally 
accepted benchmark for design and construction of high performance 
green buildings. We also plan to incorporate energy efficiency 
strategies, taking advantage of exterior shading, natural lighting, and 
passive solar orientation with sustainable landscapes with native 
vegetation. In fact, the Federal Planning Division of the American 
Planning Association recognized the ``Guam Joint Military Master Plan 
Sustainability Program and Implementation Tools'' submission as its 
2010 annual award winner in the Outstanding Sustainable Planning, 
Design, or Development Initiative category.
    Ms. Bordallo. What Operational Energy Initiatives is the Army 
engaging in? Further, what policies are the Army considering or 
implemented to improve energy efficiency on its installations and how 
are the Guard and Reserves being integrated into any such policies? 
Finally, what can this committee do to assist with the development or 
implementation of these policies?
    Secretary Hammack. In regards to Operational Energy, the Army is 
undertaking a range of initiatives to enhance operational energy 
performance and is deploying solutions throughout Afghanistan and Iraq. 
Improving the Army's Operational Energy Posture will increase mission 
effectiveness by enhancing or preserving adaptability, versatility, 
flexibility and sustainability, as well as reducing costs.
    At existing forward operating bases, we continue implement new and 
efficient ways to expand the use of solar power, turning waste to 
energy, reuse of grey water such as reusing shower water for toilets, 
using waste heat for steam to electricity generation, solar hot water, 
micro power grids and other technologies to reduce the demand for 
resources.
    The Army has replaced ``point generation'' power production with 22 
minigrid/power plants supporting U.S. forces in Afghanistan. This 
approach is achieving efficiency improvements of over 50%. Roughly \1/
3\ of these power plants incorporate ``smart'' technology to optimize 
power production based on demand.
    The Army is on track to field a new family of tactical generators, 
the Advanced Medium Mobile Power Sources family, or AMMPS, starting in 
2012. The generators, ranging in size from 5 kW to 60 kW, use an 
average of 20 percent less fuel than the current sets in the field.
    The Army is deploying the Tactical Fuels Manager Defense (TFMD), an 
automated fuel inventory management system that is configured to 
enhance tactical fuel accountability procedures. TFMD provides 
enterprise-level asset visibility of fuel operations, automated 
inventory management, theft deterrence, and business process 
improvements. This will lead to more effective fuel management 
practices.
    The Army is fielding systems to reduce weight and increase the 
capabilities of energy-related Soldier systems, such as the Rucksack 
Enhance Portable Power System (REPPS), a lightweight, portable power 
system capable of recharging batteries or/and act as a continuous power 
source that reduces the weight in batteries that a soldier needs to 
carry. One hundred systems have been delivered to units supporting 
Operation Enduring Freedom.
    Soldiers of the 1-16 Infantry Battalion received training on 
advanced power and energy systems at Fort Riley, Kansas to use during 
their recent deployment to Afghanistan. Technologies include a suite of 
advanced soldier power capabilities such as rechargeable batteries, 
power networking devices, and solar and fuel cell chargers that will 
bring power to the most disadvantaged operating environments. These 
innovations in expeditionary Soldier power will help to reduce the 
overall volume and weight of the Soldier's combat load, and will allow 
the small tactical unit to sustain themselves throughout extended 
mission durations.
    The Army also plans to significantly reduce operational contingency 
base camp energy demand by 30-60% through integrated solutions such as 
smart micro-grids, renewable energy sources, insulated shelters, more 
efficient generators and engines, better energy storage, power 
conditioning devices, and onsite water production.
    Regarding your question on installation energy, the Army is working 
to significantly improve energy efficiency across our installations and 
has recently published policies to standardize energy efficiency in 
Army operations, to include energy efficient lighting requirements, 
implementation of the highest building efficiency standards in the 
Federal Government and an Acquisition Policy requiring energy 
productivity to be a consideration in all Army Acquisition Programs.
    The Army, in concert with the Department of Energy is researching a 
range of technologies to improve vehicle efficiency. The Army is 
replacing 4,000 non-tactical fossil-fueled GSA-leased vehicles with 
low-speed electric vehicles and is also leasing more than 3,000 hybrid 
vehicles, the largest such fleet in the Department of Defense to 
undergo this transition. These efforts will reduce risks associated 
with the volatility of oil prices and result in affordable, efficient 
vehicles for the Army and the public.
    With respect to integrating the Guard and Reserve Components, as 
part of the Army's overall effort to conserve precious resources, the 
Army is focusing on Net Zero installations which will consume only as 
much energy or water as they produce and eliminate solid waste to 
landfills. The Army recently identified six Net Zero Pilot 
Installations in each of the energy, water, and waste categories and 
two integrated installations striving towards net zero by 2020. Two of 
the Net Zero energy pilots include Army Reserve installations (Camp 
Parks and Fort Hunter Liggett, CA). Additionally, the Oregon Army 
National Guard volunteered to pilot a unique Net Zero Energy Initiative 
to include all of their installations across the state. The Army will 
prepare a programmatic NEPA document to examine the impact of selected 
net zero technologies and actions in implementing net zero Army-wide. 
This initiative will establish Army communities as models for energy 
security, sustainability, value and quality of life.
    Lastly, regarding where the committee can be helpful, the Army 
believes the key to meeting our energy goals will be to expand the use 
of the Energy Conservation Investment Program (ECIP) and improve 
utilization of the authorities that Congress has already provided. 
Existing authorities include the Energy Service Performance Contracts 
(ESPC), Utilities Energy Service Contracts (UESC), Power Purchase 
Agreements (PPA) and Enhanced Use Leases (EUL). These authorities will 
allow the Army to leverage significant private sector investment for 
large scale renewable energy projects. Continued Congressional support 
of these authorities and of other Army energy initiatives will help us 
to achieve our energy goals.
    Ms. Bordallo. The age of earmarks, regrettably, is over here in 
Congress. The Department and Congress have played games for years about 
funding requirements in different portions of the budget. Of relevance 
to this subcommittee is funding of military construction projects for 
the National Guard and Reserves. Since 1996 both the Army and Air 
National Guard budgets have been over 200% higher than the President's 
budget with the authorization and appropriations process are complete. 
How will the Army and Air Force alter their requirements process for 
military construction to make sure that our Guardsmen and Reservists 
are getting equitable treatment in the President's Budget for 
facilities now that we cannot move up projects in the Future Years 
Defense Program? The Guard and Reserves are an operational force and 
their requirements are changing. What is being done to address this 
matter?
    Secretary Hammack. The Army funds military construction (MILCON) 
projects across all components based on programming guidance and 
priorities. The initiatives receiving the highest priority for MILCON 
in Fiscal Year 12 include completion of support to Grow the Army and 
Global Defense Posture Realignment; the Army's transformation to a 
modular force and permanent party and training barracks buy outs. 
Reserve Component requirements are integrated into the prioritization 
process and compete well when they support high priority initiatives. 
Army senior leaders strive to ensure balance and equity of resource 
distribution across all components and review the program through that 
lens. This will be especially important as MILCON investments become 
limited in future years.

    Ms. Bordallo. We took an important step forward with the Guam 
build-up with the signing of the programmatic agreement. I see that 
several task orders were recently awarded to firms that had MACC 
contracts. My question is a follow-up to something I asked at our 
hearing back in March. What steps have been taken to develop milestones 
or triggers as part of the adaptive management program? I believe 
working groups met recently and will present at the next CM-CC meeting. 
What are those triggers? How clearly understood will they be by the 
local community, local leaders and the contractors? Further, how will 
the CM-CC ensure compliance with these milestones and triggers? I'd 
like to learn more about these matters.
    Secretary Pfannenstiel. The Initial Civil-Military Coordination 
Council (CMCC) Charter, included as Attachment 1 to the Record of 
Decision, established a process that will be used to identify, 
coordinate and synchronize actions to avoid or reduce significant 
environmental impacts associated with the military buildup. Possible 
responses to identified impacts could include: 1) change to the pace of 
construction (i.e. contract awards or construction start dates), and/or 
2) modification to the sequence of construction projects. Decisions 
regarding the pace and sequencing of construction are to remain with 
the appropriate organizations.
    The CMCC will provide overarching guidance to topic-specific 
Council Working Groups (CWGs), and milestones and triggers will be 
unique to each CWG. Five CWGs (Construction, Utilities, Transportation, 
Housing, and Natural Resources) have been established thus far, and the 
CMCC is flexible to adding additional CWGs in the future as necessary. 
The CWGs have taken concrete steps to assess potential resource 
impacts, data requirements, and triggers, with the intent to have them 
reviewed and approved by the CMCC before major construction efforts. 
Some baseline metrics have been identified, and there is an ongoing 
effort to scrutinize metrics as to applicability. Some metrics are easy 
to determine (water turbidity) while others are more subjective/
qualitative (unacceptable traffic congestion). As Adaptive Program 
Management is a new approach, it is still very dynamic in nature. 
Triggers will be continuously reviewed for effectiveness or 
applicability throughout the buildup process, allowing for changes or 
modifications if appropriate.
    CWGs have formed sub-groups that that will concentrate on specific 
areas (such as terrestrial, marine and cultural under the Natural 
Resources CWG) and have identified resource impacts that should be 
monitored, such as storm water pollution/direct impact to coral reefs, 
water supply and quality, labor supply, port throughput, power 
capacity, and demand and stresses on essential public services. The 
CWGs will determine if additional sub-groups are necessary as the 
process matures. Thus far, most CWG efforts have been inclusive of all 
sub-areas during discussions. As the level of effort or application of 
resources increase in a specific area, a sub-group may be initiated.
    The federal government, which includes representatives from DOD and 
various resource agencies, continues to collaborate with the Government 
of Guam to identify and mature, relevant metrics and triggers that can 
be appropriately managed with APM and that can be communicated 
effectively.
    The CWGs are to utilize available sources of data including 
reports, surveys, ongoing projects and similar sources generated by 
local, federal and other organizations that are derived from existing 
programs. CMCC leadership is considering the development of a dashboard 
that can easily display data for both decision-makers and the general 
public. The CMCC meetings are open to the public and have had 
substantial media coverage to this point.
    As more detail and fidelity emerge, concepts and procedures will be 
matured and incorporated into a Final CMCC Operating Charter. The CMCC 
itself has no authority to ensure compliance with its recommendations, 
apart from efforts by individual member agencies consistent with their 
respective existing authorities.

    Ms. Bordallo. What types of alternative energy projects or programs 
are you looking at implementing at Andersen Air Force Base or in the 
overall Joint Region Marianas? How can I help make Guam an example of 
successful alternative energy programs?
    Secretary Yonkers. Joint Region Marianas (JRM), which includes 
former Andersen AFB, represents 21% of the Guam Power Authority's 
consumer base and is expected to increase to 25% after the military 
buildup. To help alleviate this increase, the DoD and Guam Power 
Authority have Memorandum of Understanding regarding the buildup and 
long-term power requirements. In the JRM, Navy is the lead for 
alternative energy projects, and the Air Force is currently cooperating 
with them to evaluate the technical, economical, political, legal and 
environmental challenges and feasibility of projects on Guam, such as 
waste-to-energy.
    Ms. Bordallo. The age of earmarks, regrettably, is over here in 
Congress. The Department and Congress have played games for years about 
funding requirements in different portions of the budget. Of relevance 
to this subcommittee is funding of military construction projects for 
the National Guard and Reserves. Since 1996 both the Army and Air 
National Guard budgets have been over 200% higher than the President's 
budget with the authorization and appropriations process are complete. 
How will the Army and Air Force alter their requirements process for 
military construction to make sure that our Guardsmen and Reservists 
are getting equitable treatment in the President's Budget for 
facilities now that we cannot move up projects in the Future Years 
Defense Program? The Guard and Reserves are an operational force and 
their requirements are changing. What is being done to address this 
matter?
    Secretary Yonkers. We thank the committee for its past support of 
increases to Military Construction (MILCON) in the President's Budget, 
and for its support of the Military Construction program in general. 
With regard to equitable treatment, the Air National Guard and Air 
Force Reserves currently receive a fair share of the total Air Force 
Military Construction budget. We clearly recognize the critical role 
played by the Air Reserve Components, so the Air Force will continue to 
ensure that they receive at least their fair share of MILCON funding 
during our annual budget processes during these times of fiscal 
restraint.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MS. SUTTON
    Ms. Sutton. Dr. Robyn, the President of the United States and 
Members of Congress, among many others, have stated that there are 
critical aspects of the infrastructure of the United States that must 
be addressed, including the toll corrosion, stress, and fatigue are 
taking on bridges, roads, buildings, pipes, and other infrastructure.
    Corrosion in DoD infrastructure alone costs the Department a 
minimum of $1.9 billion in annual direct costs.

    <bullet>  What is your plan to address corrosion, and are you 
partnering with the DOD Office of Corrosion Policy and Oversight on 
this issue?

    <bullet>  For the record, I would like to know what each of the 
other members testifying today are doing in regards in combating 
corrosion and would appreciate your input.
    Dr. Robyn. As the OSD proponent for facilities policy, our plan to 
address corrosion of facilities is addressed in the Department's 
overall corrosion control and prevention strategy, which includes 
identification of cost effective corrosion control technology, 
transitioning technology into criteria and specifications, and funding 
our facilities sustainment program. Installations and Environment 
actively partners with the DoD Corrosion Policy and Oversight Office, 
which is also located under the oversight of the Under Secretary of 
Defense for Acquisition, Technology, and Logistics, regarding 
facilities corrosion issues.

    Ms. Sutton. Dr. Robyn, the President of the United States and 
Members of Congress, among many others, have stated that there are 
critical aspects of the infrastructure of the United States that must 
be addressed, including the toll corrosion, stress, and fatigue are 
taking on bridges, roads, buildings, pipes, and other infrastructure.
    Corrosion in DoD infrastructure alone costs the Department a 
minimum of $1.9 billion in annual direct costs.

    <bullet>  What is your plan to address corrosion, and are you 
partnering with the DOD Office of Corrosion Policy and Oversight on 
this issue?

    <bullet>  For the record, I would like to know what each of the 
other members testifying today are doing in regards in combating 
corrosion and would appreciate your input.
    Secretary Hammack. As the Assistant Secretary of the Army 
(Installations, Energy & Environment), I am an active member of the 
Army's Corrosion Prevention and Control (CPC) program. I cooperate and 
collaborate with the Army's Corrosion Control and Prevention Control 
Executive (CCPE) in planning and executing the Army's CPC Strategic 
Plan, which includes support the Office of the Secretary of Defense 
(OSD) Director, Corrosion Policy and Oversight office. My staff is 
active members of both the Army's and OSD corrosion working-level 
integrated product teams. A component of the Army's and OSD corrosion 
program is to explore, demonstrate, and implement new technologies 
directed toward the Department of Defense (DoD) infrastructure.
    As new technologies have been successfully demonstrated we then 
update the Unified Facilities Criteria (UFC), Unified Facilities Guide 
Specifications (UFGS), and Design Guides. As construction projects are 
designed and executed, these UFC, UFGS, and design guides are used by 
the U.S. Army Corps of Engineers (USACE). In addition, our engineers 
and scientists share their experience and knowledge with various 
industry associations and communities to advance the application of 
these technologies in the US infrastructure.
    We are exploring the use of a number of different sensor 
technologies to identify and inform us of deterioration, stress and 
fatigue. Over time, the knowledge we gain from this information will 
aid us in determine the materials that will provide the optimum 
corrosion resistance of our infrastructure. We believe that this 
knowledge will also enable us to predict the health and well-being of 
the various infrastructure elements. This, we believe, will enable us 
to better determine and project the infrastructure maintenance 
workload.

    Ms. Sutton. Dr. Robyn, the President of the United States and 
Members of Congress, among many others, have stated that there are 
critical aspects of the infrastructure of the United States that must 
be addressed, including the toll corrosion, stress, and fatigue are 
taking on bridges, roads, buildings, pipes, and other infrastructure.
    Corrosion in DoD infrastructure alone costs the Department a 
minimum of $1.9 billion in annual direct costs.

    <bullet>  What is your plan to address corrosion, and are you 
partnering with the DOD Office of Corrosion Policy and Oversight on 
this issue?

    <bullet>  For the record, I would like to know what each of the 
other members testifying today are doing in regards in combating 
corrosion and would appreciate your input.
    Secretary Pfannenstiel. The Navy's shore infrastructure Corrosion 
Prevention and Control program is addressed by Naval Facilities 
Engineering Command (NAVFAC) through an organizational structure that 
incorporates Research, Development, Technology, and Evaluation criteria 
research and development; design policy; execution and sustainment, 
restoration and modernization policy; and program administration. 
NAVFAC corrosion subject matter experts interface regularly with the 
Navy Corrosion Executive as well as the DoD Office of Corrosion Policy 
and Oversight. NAVFAC representatives actively participate in the DOD 
Corrosion Prevention and Control Integrated Product Team and 
specialized working groups.

    Ms. Sutton. Dr. Robyn, the President of the United States and 
Members of Congress, among many others, have stated that there are 
critical aspects of the infrastructure of the United States that must 
be addressed, including the toll corrosion, stress, and fatigue are 
taking on bridges, roads, buildings, pipes, and other infrastructure.
    Corrosion in DoD infrastructure alone costs the Department a 
minimum of $1.9 billion in annual direct costs.

    <bullet>  What is your plan to address corrosion, and are you 
partnering with the DOD Office of Corrosion Policy and Oversight on 
this issue?

    <bullet>  For the record, I would like to know what each of the 
other members testifying today are doing in regards in combating 
corrosion and would appreciate your input.
    Secretary Yonkers. We recognize that our aging infrastructure is an 
important issue and that corrosion degradation is a factor affecting 
the sustainment of Air Force real property.
    Our policy direction for corrosion control of facilities and 
infrastructure is defined in Air Force Instruction 32-1054. This 
guidance directs the consideration of corrosion control in project 
designs and mandates use of corrosion control measures in our 
infrastructure. Areas that are addressed are the use of protective 
coatings, cathodic protection and industrial water treatment. Our 
bridges are inspected, per the federal requirements, for corrosion 
deficiencies of structural members. We submit annual updates to the 
national Bridge Inventory database to indicate condition and status. We 
are partnering with the Defense Logistics Agency to inspect and repair 
our fuels infrastructure including fuel storage tanks and underground 
piping for corrosion degradation. Key aspects include tank bottom 
inspections, evaluations of cathodic protection systems and pipeline 
condition evaluations. We are also evaluating our fuels infrastructure 
to determine any corrosive or material degradation effects from the 
proposed use of alternative jet fuels.
    To better manage real property assets, we have instituted improved 
processes to better manage corrosion degradation and overall facilities 
and infrastructure sustainment. We have successfully partnered with 
industry reviewing asset management practices by visiting corporate 
leadership of national companies who manage large scale properties and 
infrastructure similar to our Air Force. To implement improvements, the 
Air Force is instituting systematic and integrated processes to manage 
built infrastructure, their associated performance, risk and 
expenditures over their lifecycle. Success to date includes adopting 
the International Infrastructure Management Manual processes, 
reorganization of personnel better aligning with strategic objectives 
and comprehensive analysis of our IT needs. We are also 
institutionalizing detailed condition and performance assessments 
across our vertical and horizontal infrastructure to better understand 
risks and to strategize investment planning. While this transition is 
on-going, we are staging introductory phases leveraging existing IT 
systems and personnel. We will continue implementation as our new IT 
systems evolve and as our Air Force's asset management practices 
mature.
    We participate in the Corrosion Policy and Oversight Office under 
the Secretary of Defense's (OSD) Integrated Product Team (IPT) process. 
Under the OSD IPT, we participate in the Facilities/Infrastructure 
working group and interact with OSD and the technical corrosion 
representatives of our sister Services. This working group addresses 
corrosion control technologies and knowledge transfer to the working 
field.

                                  <all>

</pre></body></html>
